<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                       WEDNESDAY, MARCH 25, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:30 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Cochran, Murkowski, Graham, 
Lankford, Feinstein, Murray, Udall, and Shaheen.

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

STATEMENT OF HON. ERNEST J. MONIZ, PH.D., SECRETARY
ACCOMPANIED BY FRANKLIN ORR, PH.D., UNDER SECRETARY FOR SCIENCE AND 
            ENERGY


              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
Development will please come to order. This afternoon we are 
having a hearing to review the President's fiscal year 2016 
budget request for the Department of Energy. Senator Feinstein 
and I will each have an opening statement. I will then 
recognize each senator for up to five minutes for an opening 
statement, alternating between the majority and the minority. 
And then we will turn to Secretary Moniz. Secretary Orr is here 
to answer questions relating to fusion science, not because 
Secretary Moniz does not know anything about it, but because he 
does. So under our brilliant rules, we do not get to ask him.
    I am going to make one adjustment if it is necessary. 
Senator Feinstein has an unavoidable conflict at about 3:15, 
and I want to make sure that, she as well as I get to hear 
Secretary Moniz's testimony, and that she gets to make her 
opening statement and to ask her questions. So I may have 
gotten out of order a little bit with the Senators, and I am 
sure Senator Murray will be fine with--well, Senator Feinstein 
has to leave at 3:15, and I wanted to give her a little--I want 
to make sure she gets the chance to ask her questions before 
she leaves.
    Our witnesses today include Dr. Moniz and Dr. Orr. We are 
here today to review the President's fiscal year 2016 budget 
request for the Department of Energy, an Agency with three 
critical missions: nuclear security, science and energy, and 
environmental management. This is the subcommittee's fourth and 
final hearing this year on the President's budget request, and 
I look forward to hearing what the Secretary has to say.
    The Department's budget request for 2016 is about $30.5 
billion. This is an increase of about $2.5 billion over the 
amount Congress appropriated last year. Governing is about 
setting priorities, and given our fiscal constraints, 
especially on non-defense spending, we are going to have to 
make some tough decisions this year to make sure the highest 
priorities are funded.
    The President's entire discretionary budget request this 
year exceeds the Budget Control Act's spending caps by about 
$74 billion. This is not realistic. In fact, if we were to 
fully fund just the Department of Energy's budget request of 
$30.5 billion, our subcommittee would need almost the entire 
increase available, about $3 billion, in both defense and non-
defense for fiscal year 2016 under the Budget Control Act 
spending caps.
    The real driver of our Federal debt is out of control 
mandatory spending on entitlement programs. I plan to work with 
our Republican majority, and I hope the President and Senate 
Democrats who share the same concerns, to make the tough 
choices so we can pass a real plan to fix the long-term debt, 
while supporting other important priorities like national 
defense, national labs, and medical research.
    That is why we are holding this hearing, to give the 
Secretary an opportunity to talk about the Department of 
Energy's most urgent priorities so Senator Feinstein and I and 
the other committee members can begin to put together our 
appropriations bill over the next several weeks.
    I am going to focus my attention on four areas: number one, 
doubling basic energy research; two, reducing Federal spending 
on mature technologies; three, leading the world in advanced 
scientific computing; and four, solving the stalemate over what 
to do with our country's nuclear waste. Just a few comments 
about each of those areas.
    I believe doubling basic energy research is one of the most 
important things we can do. It is hard to think of any 
important technological advance in the sciences--physics, and 
biology in any event--since World War II that has not involved 
at least some form of government-sponsored research, whether it 
is the development of unconventional gas or the work being done 
to develop small modular reactors. That is why it is so 
important to double the more than $5 billion the U.S. 
Department of Energy spends on basic energy research. That was 
the goal set out in the America COMPETES legislation which 
passed under President Bush with bipartisan support. That grew 
out of the Rising Above-the-Gathering Storm report. The goal 
was to double the Federal Government's investment in basic 
research.
    Two of the ways we have increased investment in basic 
research are, one, our national lab system and, two, ARPA-E, 
which Congress created as part of America COMPETES. The Office 
of Sciences manages 10 of the 17 Department of Energy national 
laboratories that are critical to our national competitiveness 
and our way of life. They are home to the world's largest 
collection of scientific user facilities operated by a single 
organization, used by more than 31,000 researchers each year.
    Since 2009, Congress has provided about $1 billion in 
appropriations for ARPA-E, which has resulted in more than 400 
projects. ARPA-E is successful because it stops funding 
projects that do not meet their research milestones, and 
funding is limited to 5 years.
    The next priority is Federal spending on mature technology. 
Washington has a bad habit of picking winners and losers and an 
addiction to wasteful subsidies, and we need to end those 
policies. The most conspicuous example of this is the wasteful 
wind subsidy, which costs taxpayers about $6 billion every year 
we extend it, enough to double basic energy research at the 
Department of Energy.
    President Obama's former Energy Secretary, Steven Chu, said 
in 2011 that wind energy is a mature technology. There is a 
place for limited, short-term subsidies to jump start 
technologies, and I have supported some of those. But it is 
long past time for wind to stand on its own in the market. The 
subsidy for big wind has been renewed nine times since 1992. It 
is so generous that wind producers can literally give their 
electricity away in some markets and still make a profit. That 
is called negative pricing, and it is distorting the market and 
undercutting other forms of clean, reliable energy, such as 
nuclear power.
    The third area is leading the world in advanced scientific 
computing. I got involved with super computing with Senator 
Bingaman when I first became a Senator. At his direction, I 
flew to Japan to see why they were first in the world and we 
were not. I am glad to say that we have been with the Obama 
Administration over the last several years. We see eye-to-eye 
on the importance of these fast super computers, and I am glad 
that because of a recent announcement, the Secretary was able 
to make in the budget request that he includes that we will be 
able to say that the world's fastest super computer would be, 
again, in the United States by 2017.
    Finally, I would like to discuss, and I will save most of 
my comments for questions. The 25-year-old stalemate about what 
we do about used fuel from nuclear reactors. I want to make 
sure we have a strong future in this country for nuclear power. 
It is essential, therefore, we have a permanent place to put 
used nuclear fuel. The Federal Government is responsible for 
disposing of that. It has failed in its responsibility even 
though the rate payers have deposited billions to pay for it. 
The government's failure to follow the law not only imperils 
the future of nuclear power, it also results in wasting 
billions of hard-earned taxpayer dollars.
    To help solve this stalemate, Senator Feinstein and I will 
again include a pilot program for nuclear waste storage in the 
Energy and Water Appropriations Bill as we have for the past 3 
years when she was the chairman. We have also introduced 
legislation yesterday with Senator Murkowski and Cantwell to 
create both temporary and permanent storage sites for nuclear 
waste. The new sites we are seeking to establish would not take 
the place of Yucca Mountain. We have more than enough used fuel 
to fill Yucca Mountain, but rather would complement it. Our 
legislation is consistent with the President's Blue Ribbon 
Commission on America's Nuclear Future. The Secretary served on 
that commission.
    I should note that Federal law designates one repository 
for our country's used nuclear fuel, Yucca Mountain. After 
years of delay, Yucca Mountain can and should be part of the 
solution to our nuclear waste stalemate. The regulatory 
commission, Nuclear Regulatory Commission, recently completed 
the safety evaluation report that said that Yucca ``met all of 
the safety requirements through the period of geologic 
stability.'' The Commission and the Environmental Protection 
Agency defined that period as one million years. So to continue 
to oppose Yucca Mountain because radiation concerns ignores 
science as well as the law.
    Secretary Moniz had an important announcement to make 
yesterday on used nuclear fuel. I appreciate, and I know 
Senator Feinstein appreciates, his putting a priority on the 
subject. We are going to need your help, Mr. Secretary, to set 
priorities and make tough funding decisions for the Department 
this year.
    With that, I would recognize Senator Feinstein for an 
opening statement.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    We're here today to review the President's fiscal year 2016 budget 
request for the Department of Energy, a Federal agency with three 
critical missions: nuclear security, science and energy, and 
environmental management.
    This is the subcommittee's fourth and final hearing this year on 
the President's budget request, and I look forward to hearing what 
Secretary Moniz has to say about the department's priorities.
    The Department of Energy's budget request for fiscal year 2016 is 
about $30.5 billion. This is an increase of about $2.5 billion over the 
amount Congress appropriated last year.
    Governing is about setting priorities, and given our current fiscal 
constraints--especially on non-defense spending--we are going to have 
to make some tough decisions this year to make sure the highest 
priorities are funded.
    The President's entire discretionary budget request this year 
exceeds the Budget Control Act spending caps by about $74 billion. This 
is not realistic.
    In fact, if we were to fully fund just the Department of Energy's 
budget request of $30.5 billion, our subcommittee would need almost the 
entire increase available--about $3 billion--in both defense and non-
defense for fiscal year 2016 under the Budget Control Act's spending 
caps.
    The real driver of our Federal debt is out-of-control mandatory 
spending on entitlement programs.
    I plan to work with our Republican majority--and, I hope, the 
President and Senate Democrats who share the same concerns--to make 
tough choices so we can pass a real plan to fix the debt while 
supporting other priorities like national defense and national labs and 
medical research.
    And that is why we are holding this hearing: to give Secretary 
Moniz an opportunity to talk about the Department of Energy's most 
urgent priorities, so Senator Feinstein and I can make informed 
decisions as we begin to put together the Energy and Water 
Appropriations bill over the next several weeks.
    Today, I'd like to focus my questions on four main areas, all with 
an eye toward setting priorities:
  1.  Doubling basic energy research;
  2.  Reducing Federal spending on mature technologies;
  3.  Leading the world in advanced scientific computing; and
  4.  Solving the stalemate over what to do with our country's nuclear 
        waste
                     doubling basic energy research
    Doubling basic energy research is one of the most important things 
we can do to unleash our free enterprise system to help provide the 
clean, cheap, reliable energy we need to power our 21st-century 
economy.
    It's hard to think of an important technological advance since 
World War II that has not involved at least some form of government-
sponsored research. Take, for example, our latest energy boom: natural 
gas.
    The development of unconventional gas was enabled in part by 3D 
mapping at Sandia National Lab in New Mexico and the Department of 
Energy's large-scale demonstration project. Then our free enterprise 
system, and our tradition of private ownership of mineral rights, 
capitalized on the basic energy research.
    Another example is the work being done to develop small modular 
reactors, which would allow nuclear power to be produced with less 
capital investment and to be accessible in more places.
    That's why it's so important that we work to double the more than 
$5 billion the U.S. Department of Energy spends on basic energy 
research. We set out on this goal with America COMPETES, legislation 
that was first passed under President Bush with overwhelming bipartisan 
support.
    America COMPETES grew out of the ``Rising Above the Gathering 
Storm'' report on American competitiveness, written by Norm Augustine. 
The goal was to double the Federal Government's investment in basic 
research, including math, the physical sciences and engineering.
    Two of the ways we have increased investment in basic energy 
research is through our national laboratory system and the Advanced 
Research Projects Agency-Energy (ARPA-E), which Congress created as 
part of America COMPETES to fund transformational energy technology 
projects.
    The Office of Science manages 10 of the 17 Department of Energy 
national laboratories, including Oak Ridge National Laboratory in 
Tennessee. These national laboratories are critical to our Nation's 
competitiveness and our way of life.
    The laboratories are also home to the world's largest collection of 
scientific user facilities operated by a single organization, used by 
more than 31,000 researchers each year.
    Since 2009 Congress has provided about $1 billion in appropriations 
for ARPA-E, which has resulted in more than 400 projects. ARPA-E is 
successful because it stops funding projects that don't meet their 
research milestones and funding is limited to 5 years.
            reducing federal spending on mature technologies
    That brings me to the next priority I'd like to discuss, which is 
to reduce Federal spending on mature technologies. Washington has a bad 
habit of picking winners and losers, and an addiction to wasteful 
subsidies of all kinds--we need to end these policies.
    The most conspicuous example of this addiction is the wasteful wind 
subsidy--which costs taxpayers about $6 billion every year we extend 
it, enough to double basic energy research at the Department of Energy.
    President Obama's former Energy Secretary, Stephen Chu, said in 
2011 that wind energy is a ``mature technology.''
    There is a place for limited, short-term subsidies to jumpstart new 
technologies, but it is long past time for wind to stand on its own in 
the marketplace.
    The subsidy for Big Wind has been renewed 9 times since 1992 and is 
so generous that in some markets, wind producers can literally give 
their electricity away and still make a profit.
    This is called ``negative pricing'' and it shows that the wind 
subsidy isn't just wasting money that could go toward other 
priorities--it's distorting the market and undercutting other forms of 
clean, reliable energy like nuclear power.
           leading the world in advanced scientific computing
    Supercomputing is critical to our economic competitiveness and a 
secure energy future.
    The United States faces a choice between falling further behind 
competitors like China, or advancing technology that can make the 
United States safer and more competitive in a global, 21st-century 
economy.
    In November of last year, I was glad to announce with you, 
Secretary Moniz, that by 2017 the world's fastest supercomputer would 
again be in the United States, and that it would again be at Oak Ridge 
National Laboratory.
    That computer will be called Summit, and it will help researchers 
better understand materials, nuclear power, and new energy 
breakthroughs. I am glad to have your support for this initiative, and 
I appreciate that the President's budget request includes funding to 
make Summit ready for users by 2018 and also for the next generation of 
supercomputers.
    Funding this next generation, known as exascale, is essential to 
U.S. national security, competitiveness in science and technology and 
to enable our free enterprise system to create the good-paying jobs of 
the future.
    Supercomputing has helped maintain our nuclear stockpile, allowed 
manufacturers to make better products and save money and even allowed 
scientists to map the human heart at one beat per second.
                  solving the nuclear waste stalemate
    I'd also like to discuss solving the 25-year-old stalemate about 
what to do with used fuel from our nuclear reactors, to ensure that 
nuclear power has a strong future in this country.
    Federal law makes the government responsible for disposing of used 
nuclear fuel. Yet the government has failed in this responsibility, 
even though ratepayers have deposited billions into the Nuclear Waste 
Fund to pay for it.
    The government's failure to follow the law not only imperils the 
future of nuclear power in our country, but it also results in wasting 
billions of hard-earned taxpayer dollars to settle lawsuits by 
utilities, who are stuck with the used fuel until the government takes 
it.
    To help solve this stalemate, Senator Feinstein and I will again 
include a pilot program for nuclear waste storage in the Energy and 
Water Appropriations bill, as we have for the past 3 years.
    We also introduced bipartisan legislation yesterday with Senator 
Lisa Murkowski and Senator Maria Cantwell to create both temporary and 
permanent storage sites for nuclear waste.
    The new sites we are seeking to establish would not take the place 
of Yucca Mountain--we have more than enough used fuel to fill Yucca 
Mountain to its legal capacity--but rather would complement it.
    Our legislation is consistent with the President's Blue Ribbon 
Commission on America's Nuclear Future, and is the result of many 
meetings with experts like Secretary Moniz, who served on the Blue 
Ribbon Commission.
    I should note that Federal law designates one repository for our 
country's used nuclear fuel, Yucca Mountain. After years of delay, I 
want to be clear: Yucca Mountain can and should be part of the solution 
to our nuclear waste stalemate.
    The Nuclear Regulatory Commission recently completed the Safety 
Evaluation Report that said Yucca Mountain met all of the safety 
requirements through ``the period of geologic stability.'' The 
commission and the Environmental Protection Agency define the ``period 
of geologic stability'' as 1 million years.
    To continue to oppose Yucca Mountain because of radiation concerns 
is to ignore science--as well as the law.
    Secretary Moniz, we are going to need your help to set priorities 
and make tough funding decisions for the department this year, and I 
look forward to your testimony.
    With that, I would recognize Senator Feinstein to make her opening 
statement.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman, and I 
agree with virtually all of your statement. And it is really a 
pleasure for me to work with you over these many years, and I 
think we have gotten some things done. I will put my written 
remarks in the record if I may. And I just want to say that I 
am delighted that we have finally introduced a waste policy act 
bill for our country, which has no waste policy that we know 
of, and which at the price of about $20 billion a year 
registers debt because we are unable to carry out our mission. 
And I understand we will owe about $20 billion by 2020. So this 
is a step along the way.
    And I want to point out that it is voluntary. If we have 
learned anything it is that these facilities have to have the 
approval of their community and their State. And so, the bill 
we have submitted essentially achieves that, and also has the 
Congress approving it as well. So it has been a long work in 
progress.
    We have had the pleasure of meeting with two Secretaries, 
Secretary Chu and Secretary Moniz, with the Blue Ribbon 
Commission, with virtually a number of other people. We have 
discussed among ourselves different mechanisms. And, the four 
of us have always come to agreement, and one more time we have 
come to agreement in a bill that has now been introduced. And 
hopefully Senator Murkowski will schedule it and have a 
hearing, and it can move ahead. I view that as a very important 
legislative endeavor.
    The rest of my--I would rather save my time for the 
questions if I may, and thank you very much.
    Senator Alexander. Thank you, Senator Feinstein. Here is 
how we will proceed. I will ask Senator Murray to her opening 
statement, and then we will go Secretary Moniz for his 
testimony. Then we will go to Senator Feinstein for her 
questions so that she has a chance to offer them before she 
needs to leave.
    Senator Feinstein. Thank you.
    Senator Alexander. Senator Murray.
    Senator Murray. Mr. Chairman, thank you. I will just save 
my time for questions.
    Senator Alexander. Thank you, Senator Murray. I might just 
say that I am a fortunate chairman because the ranking members 
that I work with are both here today, and I really appreciate 
my ability to work with both of these senators. They are 
direct. They are easy to work with. They state their positions, 
and they look for results. So it makes my work here much more 
useful.
    Secretary Moniz, welcome. We look forward to your 
testimony.

                SUMMARY STATEMENT OF DR. ERNEST J. MONIZ

    Secretary Moniz. Thank you, Mr. Chairman, and I might say 
that I enjoy working with all three of you as well. Ranking 
Member Feinstein, Senator Murray, I am pleased to be here to 
discuss our fiscal year 2016 budget request of $29.9 billion.
    As you know, the Department is entrusted with a diverse 
portfolio. It includes advancing the all-of-the-above energy 
strategy, providing a good part of the backbone of basic 
research in the physical sciences in this country, ensuring 
nuclear security, and cleaning up the Cold War environmental 
contamination. The request represents an increase, as you said, 
of $2 and a half billion, or nine percent, above the fiscal 
year 2015 appropriations level, and we feel supports a balanced 
portfolio within those mission areas.
    In funding for nuclear security activities, including NNSA 
and defense-related environmental cleanup, that totals almost 
$19 billion. Nearly 2/3 of our budget is in the defense line. 
The non-defense line--science, energy, and other activities--
about $10.9 billion.
    Let me just summarize a few highlights so that we can move 
on to our discussion. First, in science and energy, that fiscal 
year 2016 request is $5.3 billion for science, a 5 percent 
increase. Among other things, we are very committed to continue 
building and upgrading and operating our national research 
infrastructure to really stay at the cutting edge of light 
sources, super computer, neutron sources, and other large-scale 
facilities that we make available to the national community.
    As one highlight, just last month we completed--celebrated 
the completion ahead of schedule and within budget of the 
brightest light source in the world, the National Synchrotron 
Light Source II at Brookhaven, and we have a number of other 
upgrades at other places coming along. We have also 
commissioned major facilities at Jefferson Lab and at 
Princeton. We are now building a second generation light source 
at SLAC, and the rare isotope beam facility at Michigan State. 
So I just want to emphasize that it is a pattern of advancing 
these important facilities for our user community.
    The energy portfolio is about $5.38 billion in the 
proposal. Over the past year we have seen accomplishments 
across our all-of-the-above energy technology portfolio. We 
have actually--we have sequestered now over nine million metric 
tons of CO<INF>2</INF> in DOE-sponsored projects. Two 
cellulosic ethanol facilities that were partially supported by 
DOE grants and loan guarantees have begun operating. We issued 
last year 10 final appliance efficiency standards, which all 
together will reduce CO<INF>2</INF> emissions by over 435 
million metric tons and save consumers about $80 billion 
through 2030.
    Advanced manufacturing is a key priority, and the budget 
provides about $400 million to fully fund, and it is 5 years of 
funding, of two new clean energy manufacturing institutes while 
continuing funding for four institutes. Just last month we 
announced the Manufacturing Innovation Institute for Advanced 
Composites, which I think you are familiar with, Mr. Chairman. 
This technology has the potential to revolutionize advanced 
manufacturing with implications reaching from better wind 
turbines to more efficient vehicles.
    The budget increases our investments in sustainable 
transportation, including $40 billion for technologies to 
double freight truck efficiency by 2020. Also $253 million for 
advancing the Electric Vehicle Everywhere Initiative to promote 
that technology. In fossil energy, we will continue development 
of carbon capture utilization and storage for coal plants, and 
note this was done in concert with the new tax credits that are 
proposed in the Administration's Power Plus Initiative for 
carbon sequestration.
    I would like to highlight our proposed increase in ARPA-E, 
an increase of $45 million. We are now at the fifth anniversary 
of the first ARPA-E grants, and now we can start talking about 
the impressive successes in outcomes from that program, 
including moving technologies to the marketplace.
    And finally, the budget includes $63 million to initiate 
two new programs of grants to States, one on reliability 
planning and one on energy assurance planning. The forthcoming, 
and it is forthcoming, quadrennial energy review will provide 
supporting analyses for these initiatives.
    Let me then turn briefly to national nuclear security. The 
fiscal year 2016 budget allocates $11.6 billion to NNSA. The 
budget supports a key objective to sustain the successful two-
decade now Scientific Stockpile Stewardship Program to maintain 
a safe, secure, and effective nuclear weapon stockpile without 
testing. The budget also includes funding increases to 
modernize the stockpile through life extension programs and new 
investments in the supporting infrastructure.
    Last year in our nonproliferation programs, we removed or 
disposed of almost 200 kilograms of vulnerable nuclear 
materials out of six countries and expanded radiation detection 
systems worldwide to prevent illicit trafficking of nuclear and 
radiological materials. The budget includes $1.9 billion for 
the Nonproliferation Office. The budget also includes 
construction of the Mixed Oxide Project of Savannah River at 
the same funding level as Congress appropriated in fiscal year 
2015, while completing congressionally directed studies on 
plutonium disposition costs and alternatives.
    The budget also provides $1.4 billion for the Naval 
Reactors Program to continue development of the Advanced Ohio 
Class replacement reactor, support refueling of the land-based 
prototype reactor, and expand design work for the Spent Fuel 
Handling Recapitalization project.
    Finally, within our management and performance portfolio, 
the largest element by far is the Environmental Management 
Program. The fiscal year 2016 budget request is $5.8 billion, 
essentially equal to the fiscal year 2015 appropriation. We 
know significant challenges remain, but for perspective, DOE 
has cleaned up over 85 percent of sites and 90 percent of the 
land area.
    The fiscal year 2015 appropriation provided a large one-
time funding increase to implement the recovery plan for the 
Waste Isolation Pilot Plant. Bringing this facility back on 
line is a very high priority, and we believe we are on schedule 
to resume operations in about a year. The fiscal year 2015 
funding also enabled us to complete demolition of the K25 
Facility at Oakridge.
    The fiscal year 2016 budget allocates increased funding for 
a phased approach for the Hanford Waste Treatment Plant to 
begin vitrifying low activity waste early next decade. We will 
also operate the Integrated Waste Treatment Unit at Idaho, and 
complete construction of the Salt Waste Processing Facility at 
Savannah River. Finally, elsewhere within management and 
performance, we continue to strengthen cross-program 
coordination and to improve efficiency and effectiveness of 
mission support functions.
    That concludes my statement, and I look forward to our 
discussion. Excuse my voice.
    [The statement follows:]
               Prepared Statement of Hon. Ernest J. Moniz
    Chairmen Cochran and Alexander, Ranking Members Mikulski and 
Feinstein, and members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the Department of 
Energy's (DOE) budget request for fiscal year 2016. I appreciate the 
opportunity to discuss how the budget request advances the Department 
of Energy's missions.
advancing nuclear security, science & energy, and environmental cleanup
    DOE is entrusted with a broad and diverse portfolio across its 
three major mission areas of nuclear security, science and energy, and 
environmental management. The budget request for fiscal year 2016 for 
the Department of Energy is $29.9 billion, $2.5 billion above fiscal 
year 2015 enacted, to support our mission responsibilities and to 
continue improving our management and performance in support of those 
missions.
    For nuclear security, the budget includes $12.6 billion, an 
increase of $1.2 billion over the fiscal year 2015 enacted level, to 
support DOE's responsibilities of maintaining and modernizing, via life 
extension programs, the nuclear deterrent without testing; controlling 
and eliminating nuclear materials worldwide and providing nuclear and 
radiological emergency response capabilities in an age of global 
terrorism; and propelling our nuclear Navy.
    For science and energy, the budget includes $10.7 billion, an 
increase of $1.3 billion over the fiscal year 2015 enacted, to support 
DOE's missions of enabling the transition to a clean energy future with 
low-cost, all-of-the-above energy technologies; supporting a secure, 
modern, and resilient energy infrastructure; and providing the backbone 
for discovery and innovation, especially in the physical sciences, for 
America's research community.
    For environmental management, the budget includes $5.8 billion, to 
support DOE's responsibility of cleaning up from the Cold War legacy of 
nuclear weapons production.
    Approximately $18.9 billion, or 63 percent of the Department's 
budget request, is national security-related funding, including the 
nuclear security and most of the environmental management programs. The 
remaining 37 percent is for nondefense programs in energy, science, and 
other programs such as building capabilities to respond to energy 
disruptions, enhancing data collection and analysis in critical areas, 
and supporting obligations for international cooperation in clean 
energy and energy security.
 science: leading edge research and world class research infrastructure
    Starting with basic research, DOE's Office of Science is the 
largest Federal sponsor of basic research in the physical sciences, 
supporting 22,000 researchers at 17 National Laboratories and more than 
300 universities. Informed by the latest science advisory council 
reports and recommendations, the fiscal year 2016 budget request 
provides $5.34 billion for Science, $272 million above the fiscal year 
2015 enacted level, to continue to lead basic research in the physical 
sciences and develop and operate cutting-edge scientific user 
facilities while strengthening the connection between advances in 
fundamental science and technology innovation.
    One of the signature aspects of our basic science research program 
is the Department's support for the construction and operation of major 
user facilities at the national laboratories that serve over 31,000 
scientists and engineers each year on an open-access basis. We are 
committed to staying at the cutting edge of light sources, super 
computers, neutron sources, and other facilities essential to advancing 
our mission. In the last year, for example, we completed the brightest 
light source in the world, the National Synchrotron Light Source II at 
Brookhaven National Laboratory, ahead of schedule and on budget. We are 
at the commissioning phase of the 12 GeV Upgrade to the Continuous 
Electron Beam Accelerator Facility at the Thomas Jefferson National 
Accelerator Facility, and the National Spherical Torus Experiment at 
Princeton Plasma Physics Laboratory intends to begin research this 
summer after a significant upgrade.
    Looking forward in the fiscal year 2016 budget, we continue 
construction of critical, new user facilities while ensuring increased 
investment in national laboratory infrastructure renewal to help 
sustain America's scientific enterprise. The Request supports a major 
upgrade of the Linac Coherent Light Source at SLAC and construction of 
the Facility for Rare Isotope Beams at Michigan State University. In 
addition, the budget provides approximately $2 billion to fund 
operations of our 27 existing scientific user facilities.
    These facilities investments and research grants funded by the 
Office of Science will ensure that we continue to support discovery 
science, as well as science that underpins future energy and other 
technologies.
    For example, using the current Linac Coherent Light Source at SLAC, 
scientists last year mapped for the first time the structure of a 
protein within a living cell. This single example highlights the 
tremendous benefits of our national laboratories in a broad range of 
scientific and applied areas. In addition, the Office of Science 
supports research at hundreds of universities in all 50 States through 
competitive grants to advance our mission. For example, a university 
group recently developed a new class of polymer-based flexible 
electronics for solar cells and medical applications through DOE-funded 
research.
    High performance computing is a traditional area of strength and 
responsibility for the Department of Energy that has been an important 
component of U.S. leadership in science and technology more broadly. 
The fiscal year 2016 budget grows our investment significantly to $273 
million for a multi-year, joint Office of Science-National Nuclear 
Security Administration (NNSA) effort to achieve exascale computing--
computing platforms with 100 to 1000 times more computational power 
than today's systems. This effort requires researchers and industry to 
overcome a number of technical challenges, including energy and big 
data management, as part of our push to develop enabling capabilities 
for exascale computing. We recently announced the joint Collaboration 
of Oak Ridge, Argonne, and Lawrence Livermore (CORAL) to advance within 
an order of magnitude of the exascale target within a few years. In 
addition, the Office of Science is supporting the Computational Science 
Graduate Fellowship program to support training in advanced scientific 
computing. These investments will ensure continued U.S. leadership of 
this critical capability in a very competitive global environment.
    The budget provides funding at the fiscal year 2015 level for the 
U.S. contributions to the ITER project, a major international fusion 
facility currently under construction in France. ITER will be the 
world's first magnetic confinement long-pulse, high-power burning 
plasma experiment aimed at demonstrating the scientific and technical 
feasibility of fusion energy, and the request includes support for 
important critical-path items.
    We will continue in this budget to grow the Energy Frontier 
Research Center (EFRC) program by initiating five new centers and 
continuing support for existing Centers, for a total investment of $110 
million in fiscal year 2016. This EFRC program is our flagship 
investment in basic science that underpins future energy technologies.
    With our budget request, we support Fermilab operations at a total 
of $135 million for operations, which includes operations of the NOvA 
neutrino experiment. We are also investing $20 million to move forward 
planning and design for the Long Baseline Neutrino Facility at 
Fermilab. Last year, the particle physics community came forward with a 
visionary strategic plan for the High Energy Physics program, and our 
budget request responds to their recommendations, specifically by 
aiming to develop a strong international consortium for the next 
generation of neutrino physics experiments.
                                 energy
All-of-the-Above Energy Approach for a Clean Energy Economy
    Preparing for the clean energy economy in order to address climate 
change and energy security, principally through science and technology, 
is an essential focus of the Department of Energy. The President's 
Climate Action Plan is a guiding document for our efforts to mitigate 
climate change risks through clean energy technologies. The 
Administration remains committed to an all-of-the-above energy 
approach, and we believe that we need to enable technologies across all 
fuel sources to become competitors in a future clean energy 
marketplace.
    In the last year, we have seen important accomplishments across the 
Department's technology portfolio that highlight our all-of-the-above 
approach. We have geologically sequestered over 9 million metric tons 
of CO2 through DOE-supported projects. Two commercial-scale cellulosic 
ethanol facilities supported by DOE grants or loan guarantees have 
commenced operations. We have commissioned one of the world's largest 
battery storage systems at the Tehachapi Wind Energy Storage Project. 
We have issued ten final appliance energy efficiency standards in 
calendar year 2014, which altogether will help reduce carbon dioxide 
emissions by over 435 million metric tons through 2030. Standards 
enacted since 2009 are projected to avoid a cumulative total of 2.2 
billion metric tons of carbon emissions through 2030. The Office of 
Energy Efficiency and Renewable Energy (EERE) has achieved 70 percent 
of the SunShot goal of cost parity for utility scale solar energy.
    The Advanced Research Projects Agency--Energy's (ARPA-E) grant 
program has attracted more than $850 million in private follow-on 
funding to 34 ARPA-E projects, with 30 ARPA-E teams forming new 
companies.
    EERE has launched the Frontier Observatory for Research in 
Geothermal Energy (FORGE), a first-of-a-kind field laboratory to deploy 
enhanced geothermal energy systems, and we have seen battery technology 
improvements that are projected to reduce battery costs for electric 
vehicles by 40 percent. The Office of Nuclear Energy has successfully 
completed the first 5-year program at the Consortium for Advanced 
Simulation of Light Water Reactors (CASL) nuclear modeling Hub at Oak 
Ridge and has initiated a second award for design and licensing support 
of a small modular nuclear reactor with advanced safety features.
    Consistent with an all-of-the-above energy strategy, the DOE Loan 
Programs Office has issued loan guarantee solicitations for innovative 
technologies in four areas, including $4 billion for renewable energy 
and energy efficiency, $8 billion for fossil energy, $12 billion for 
nuclear energy, and $16 billion for advanced vehicle technology 
manufacturing.
    Projects that this program has supported include one of the world's 
largest wind farms; several of the world's largest solar generation and 
thermal energy storage systems; Tesla Motors; and more than a dozen new 
or retooled auto manufacturing plants. This program's accomplishments 
include issuing loan guarantees for projects that avoided more than 6.1 
million metric tons of carbon dioxide cumulatively in 2014, and for 
companies that produced more than 2.1 million fuel-efficient vehicles 
in 2014. We are moving aggressively in finding good projects to deploy 
innovative energy technologies using the remaining $40 billion in loan 
authority in the coming years.
    Together, these accomplishments illustrate how DOE's programs 
invest in an all-of-the-above spectrum of energy technologies, and the 
fiscal year 2016 budget request continues forward on that strategy with 
a $5.4 billion request for our applied energy programs.
    Advanced manufacturing will continue to be a major focus of our 
investments. We will continue to help support an American manufacturing 
renaissance. The fiscal year 2016 budget fully funds two new clean 
energy manufacturing innovation institutes and continues funding for 
four institutes, as part of the larger National Network for 
Manufacturing Innovation, including the advanced composites 
manufacturing institute in Tennessee the President announced in 
January. To support these institutes, the Request provides $196 million 
out of a total request of $404 million for EERE's Advanced 
Manufacturing program.
    In energy efficiency, the Request invests $264 million, an increase 
of $92 million, to develop and promote the adoption of technologies and 
practices that, when fully deployed, would reduce U.S. building-related 
energy use by 50 percent from the 2010 Annual Energy Outlook baseline. 
It also provides $228 million, $35 million above fiscal year 2015, to 
support competitively selected projects, training and technical 
assistance, and residential energy efficiency retrofits to 
approximately 33,000 low-income households nationwide.
    The FEMP budget includes $15 million for the Federal Energy 
Efficiency Fund which provides direct assistance to agencies for 
investing in priority energy projects for efficiency and renewables. By 
providing direct funding and leveraging cost sharing at other agencies, 
the fund creates greater opportunities to develop Federal projects that 
may not otherwise be implemented.
    The Request increases our investments in sustainable 
transportation, including $40 million for the SuperTruck II initiative 
to develop and demonstrate technologies to double class 8 freight truck 
efficiency by 2020 from a 2009 baseline. The Request also continues our 
focus on electric vehicles by investing $253 million in the EV 
Everywhere initiative, which aims to enable domestic production of 
plug-in vehicles that are as affordable and convenient as gasoline 
vehicles by 2022. By continuing to make progress in core component 
technologies such as the dramatic reductions we are seeing in battery 
and fuel cell costs, we are looking to achieve transformative 
performance improvements for electric vehicles in the marketplace.
    In biofuels, the budget continues our focus on drop-in fuels, which 
can take advantage of existing infrastructure, and we will provide $45 
million for the jointly funded USDA/DOD/DOE commercial scale 
biorefineries program to produce military specification drop-in fuels. 
We will also continue research and development efforts on supplying, 
formatting, and converting cellulosic and algae-based feedstocks to 
bio-based gasoline and diesel, with a $138 million investment in the 
fiscal year 2016 Request.
    The budget continues to support accelerated advances in renewable 
energy. The SunShot Initiative has helped accelerate the reduction in 
solar costs, and our request of $337 million, an increase of $104 
million, aims to continue progress to achieve cost parity without 
subsidies by 2020. For wind energy, the Request of $146 million, an 
increase of $39 million, includes funding for year 5 of a 6 fiscal-year 
Offshore Wind Advanced Technology Demonstration program supporting 
three offshore wind projects on track to begin operation in 2017. Our 
request of $96 million for geothermal energy, $41 million above fiscal 
year 2015, implements the FORGE, an experimental facility aimed to 
advance enhanced geothermal systems, and pursues new approaches to 
hydrothermal development with a special focus on collaborative efforts 
with the Office of Fossil Energy on subsurface science, technology and 
engineering.
    As we witness the transformation of our Nation's electric grid, the 
Department continues to drive electric grid modernization and 
resilience. In May 2014, with cost-share funding provided by the Office 
of Electricity Delivery and Energy Reliability (OE), Southern 
California Edison constructed and installed equipment for a prototype 8 
megawatt/32 megawatt-hour battery storage plant for wind integration at 
Tehachapi, CA. The Tehachapi Wind Energy Storage Project is positioned 
to demonstrate the effectiveness of lithium-ion battery and smart 
inverter technologies to improve grid performance and assist in the 
integration of variable energy resources. In addition, we continue 
improving the security of the Nation's energy infrastructure. Oak Ridge 
National Laboratory announced in January 2015 the licensing of its 
Hyperion software, which helps detect software that has been 
maliciously altered. Today, more than 20 new technologies that OE 
investments helped support are now being used to further advance the 
resilience of the Nation's energy delivery systems.
    In fossil energy, we will continue our across-the-board focus on 
carbon capture and sequestration and improving the environmental 
performance of natural gas development. In particular, the fiscal year 
2016 budget includes funding to conduct initial R&D towards 
demonstration of carbon capture and storage for natural gas plants. 
While natural gas is an important bridge fuel, natural gas, as well as 
coal, will need carbon capture and sequestration to compete in a future 
clean energy economy.
    And while the fiscal year 2016 budget does not request new 
authority in these areas, the Department has $8 billion in loan 
guarantee authority for advanced fossil technologies, as I mentioned 
earlier, and the Department will continue to work with prospective 
applicants. Through the President's budget request for the Treasury 
Department, the Administration is also proposing a new, $2 billion 
refundable investment tax credit, including support for the 
infrastructure for carbon capture and sequestration, as well as a 
sequestration credit for commercial carbon capture use and storage 
(CCUS) deployment to allow for enhanced oil recovery or injection into 
deep saline aquifers.
    In the area of nuclear energy, the Request includes $62.5 million 
to continue technical support for moving a small modular reactor to the 
Nuclear Regulatory Commission licensing stage by the end of 2016, as a 
step towards industry's demonstration of this important technology 
early in the next decade. The Request includes $326 million to support 
research and development on reactor aging issues, advanced reactor 
concepts, and the fuel cycle. This request continues to support R&D on 
nuclear fuel issues at the Idaho National Laboratory. It also supports 
research on accident tolerant fuels and includes funding to continue 
laying the groundwork for implementing the Administration's Strategy 
for the Management and Disposal of Used Nuclear Fuel and High-Level 
Radioactive Waste, including a consent-based approach to the siting of 
storage and disposal facilities for nuclear waste. The Request also 
focuses resources on maintaining operational readiness at the Idaho 
National Laboratory, including $23.2 million for major power 
distribution infrastructure refurbishments and $11.7 million for 
critical security infrastructure investments.
    The Request includes $325 million for ARPA-E, an increase of $45 
million from fiscal year 2015, to continue to grow this important 
program. The program, which received its first appropriation in 2009, 
is now showing impressive results. It has over 400 projects to date, 
and the first group of completed projects has led to 30 new companies, 
of which five have been acquired by large strategic investors. 
Altogether, 34 ARPA-E projects have attracted over $850 million in 
follow-on funding.
    Through ARPA-E, we will continue to invest in early-stage 
innovation with the potential to lead to transformational energy 
technologies.
    For the loan programs, while the Request does not propose new 
authority for the Title 17 or Advanced Technology Vehicles 
Manufacturing loan programs, the fiscal year 2016 budget does include 
$9 million for credit subsidy to support a new loan guarantee 
solicitation for new clean energy projects on Tribal Lands.
    In addition to the new loan program, the Request provides $20 
million for the Office of Indian Energy Policy and Programs, an 
increase of $4 million, for its technical and financial assistance 
programs, with increased emphasis on remote communities and the 
National Strategy for the Arctic Region.
    The Department's final fiscal year 2015 budget supported a new 
workforce development effort for graduate and post-doctoral training in 
three areas of specific mission need for the Department: high 
performance computing in the Office of Science, advanced manufacturing 
in the Office of Energy Efficiency and Renewable Energy, and subsurface 
topics and project management in the Office of Environmental 
Management. These DOE traineeships are modeled in part after other 
Federal programs for university-led graduate traineeships and include 
components that are uniquely focused on DOE mission workforce training 
needs. Our fiscal year 2016 budget request proposes to add a fourth 
traineeship on radiochemistry, supported by the Office of Nuclear 
Energy, where we see a specific mission need.
Transforming Energy Systems, Investing in Resilient Energy 
        Infrastructure
    In addition to the clean energy investments I just discussed, our 
Nation's energy infrastructure is an area that needs--and is now 
getting--more attention.
    We have had several recent accomplishments relating to our energy 
infrastructure. Following the aftermath of Superstorm Sandy, the Office 
of Electricity Delivery and Energy Reliability committed $500,000, 
along with EERE, totaling $1 million for Sandia National Laboratories 
to provide technical assistance to New Jersey Transit and the Board of 
Public Utilities to assess NJ Transit's energy needs and help develop a 
conceptual design of an advanced microgrid system that will avoid 
disruptions and make it easier to get the power back on after a major 
disaster.
    Led by our Office of Energy Policy and Systems Analysis, we have 
also completed a nationwide public stakeholder process and analytical 
work in support of the upcoming release of the first-ever Quadrennial 
Energy Review (QER) of U.S. energy infrastructures.
    The QER is a 4-year interagency process, with the first year 
focusing on energy infrastructure--the transmission, storage, and 
delivery of energy. We expect the first QER installment to be released 
soon, and many of you may be interested in that document for its 
systematic analysis of the breadth of challenges with our current 
energy infrastructure. The QER will also include recommendations to 
drive future program directions.
    The electricity grid underpins many other infrastructures, and the 
fiscal year 2016 budget Request includes $356 million, an increase of 
$160 million, for a major crosscutting initiative led by the Office of 
Electricity Delivery and Energy Reliability to focus on the 
modernization of the electricity grid. This initiative invests in 
technology development, enhanced security, and modeling to enable the 
electricity grid of the future. This initiative includes $10 million 
for R&D to improve resilience of large-scale electricity transformers 
and $14.5 million to transition to an integrated system at the 
distribution level and develop a platform for market-based control 
signals. In addition, the Request establishes a virtual collaborative 
environment for conducting real-time advanced digital forensics 
cybersecurity analysis, which can be used to analyze untested and 
untrusted code, programs, and websites without allowing the software to 
harm the host device.
    The Request includes $15 million to develop advanced technologies 
to detect and mitigate methane emissions from natural gas transmission, 
distribution, and storage facilities, and $10 million to improve 
methane leakage measurements.
    We will focus new attention on State grants for energy assurance 
and reliability, recognizing that many authorities and actions in this 
area depend upon the States. The fiscal year 2016 Request includes 
$35.5 million to provide grants to State, tribal, and local governments 
to update energy assurance plans to address infrastructure resilience, 
as well as $27.5 million that is part of the Grid Modernization 
crosscutting initiative to provide competitive grants to States and 
multi-State entities to address electricity reliability.
    Finally, while we move toward implementation of recommendations on 
the first installment of the QER on infrastructure, DOE will move 
forward on future installments of the 4-year QER. The budget includes 
$35 million for the Office of Energy Policy and Systems Analysis to 
provide integrated energy systems analysis and follow-on QER support 
activities.
    In addition to the longstanding major mission areas of nuclear 
security, science and energy, and environmental cleanup, emergency 
response is an important mission for the Department. While we have had 
an ongoing responsibility for nuclear and radiological incident 
response, the Department has intensified its efforts for energy 
infrastructure emergency response, working with FEMA. Our budget 
proposes an increase from $6 million to $14 million for Infrastructure 
Security and Energy Restoration, the lead program for these responses. 
While the budget for this emerging responsibility is relatively small, 
it is an increasingly important focus.
Enhancing Collective Energy Security
    The Department's work in energy security is modest in budget 
requirements but greatly important for the Nation. Particularly given 
the events in Europe and Ukraine, we have an increased global focus on 
collective energy security--energy security for the United States and 
its allies.
    In the last year, we worked with the G-7 and the European 
Commission to achieve a G-7 Leaders Agreement on a new collective 
energy security framework. Led by our Office of International Affairs, 
we also worked directly with Ukraine to provided technical support in 
developing its first ever energy emergency management plan, especially 
for the winter. In December, we also signed a Memorandum of 
Understanding with Canada and Mexico to initiate improved coordination 
of North American energy data. Led by DOE's Energy Information 
Administration (EIA), this will help us develop stronger active 
collaboration moving forward.
    To continue on this progress for collective energy security, the 
fiscal year 2016 budget request includes $24 million for the Office of 
International Affairs. While the funding level is not large compared 
with other parts of the Department, the Office of International Affairs 
is taking on increased responsibility, as I just highlighted, and 
funding at this level is needed to fulfill its important mission and 
strengthen international energy technology, information and analytical 
collaborations.
    Similarly, the budget increases investment in the EIA to $131 
million, in order to fill gaps in current energy data, including 
transportation of oil by rail and integrating energy data with Canada 
and Mexico. The EIA recently initiated a data reporting program on oil 
and natural gas production trends by region, and the requested increase 
is needed to continue with this and other improvements in our data 
collection, analysis, and reporting.
    Last year, the Department also completed a 5 million barrel test 
sale for the Strategic Petroleum Reserve (SPR) to look at 
infrastructure challenges resulting in large part from pipelines now 
flowing in opposite directions from when the SPR was originally 
established. Through the test sale, we found challenges confronting the 
SPR's distribution system, and the fiscal year 2016 budget proposes an 
increase of $57 million above fiscal year 2015 for the SPR to begin 
addressing the operational readiness issues found through the test sale 
to enhance distribution flexibility and reliability and to begin to 
address the existing backlog of deferred maintenance projects.
Strategic Partnerships with National Laboratories to Advance DOE 
        Missions
    The Department is continuing its focus on building the strategic 
partnership with the National Laboratories. DOE is a science and 
technology agency, and our efforts across all of our mission areas are 
heavily grounded in science and technology. The National Labs are a 
major core asset in executing our missions, and strengthening our 
partnerships is critical to our success.
    We are doing that in a variety of ways. For example, DOE is 
engaging the laboratories very early on in our program planning. The 
National Laboratories Ideas Summit helped shape fiscal year 2016 budget 
initiatives and was instrumental in forming a special consortium of 14 
National Laboratories arranged to implement the crosscutting grid 
modernization research.
    We also have begun using the National Laboratories' expertise in 
science and technologies in some of our major challenges outside of the 
science and energy arena. When faced with what looked like major 
problems with the cost and schedule of the Uranium Processing Facility 
(UPF) at the Y-12 National Security Complex in Oak Ridge, or the major 
problem we had at the Waste Isolation Pilot Plant (WIPP), we engaged 
Laboratory leadership to help reformulate our approach to those issues. 
In those two examples, Oak Ridge National Laboratory led the Red Team 
review and restructuring of UPF, and the Savannah River National 
Laboratory led the forensics effort to investigate the cause of the 
failure of the waste canister at WIPP.
    The Laboratory Operations Board (LOB), a body that we put in place 
in 2013, performed the first-ever uniform assessment of general purpose 
infrastructure at all Laboratories and NNSA plants. That has led to 
identifying over $100 million in the fiscal year 2016 budget in new 
investments for priority general purpose infrastructure projects guided 
by LOB assessments, while also avoiding an increase in deferred 
maintenance.
    Finally, we have developed new strategies to strengthen 
institutional capability of the National Laboratory system based on 
advice from the Secretary of Energy Advisory Board (SEAB).
Enhancing Impact: Crosscutting Initiatives in Key Technology Areas
    The fiscal year 2016 budget expands the crosscutting initiatives 
introduced in the fiscal year 2015 budget designed to advance key 
technology areas that have multiple energy resource applications. Each 
crosscut reflects an integrated plan of work to optimize programmatic 
objectives by efficiently allocating resources. Through deliberate and 
enterprise-wide planning and coordination of these research efforts, 
the crosscutting initiatives will help bolster DOE's efforts to 
institutionalize enhanced program management and coordination across 
program offices, while accelerating progress on key national 
priorities.
    The programs and budgets within the three mission areas include 
over $1.2 billion in crosscutting R&D across six initiatives focusing 
on: electricity grid modernization, subsurface technology and 
engineering, supercritical carbon dioxide technology, energy-water 
nexus, exascale computing, and cybersecurity. These initiatives are the 
product of a concerted coordination effort among all three DOE Under 
Secretariats and program offices across the Department in close 
collaboration with the National Laboratories.
    The fiscal year 2016 budget continues to build on the five 
crosscutting initiatives established in fiscal year 2015. The Exascale 
Computing initiative invests to make progress toward a thousand-fold 
improvement over current high performance computers. Grid Modernization 
supports technology development, enhanced security, and stakeholder 
support to enable evolution to the grid of the future. The Subsurface 
Engineering initiative invests in new wellbore systems, seismic 
research, and other areas supporting a wide variety of energy sources. 
The Supercritical Carbon Dioxide initiative establishes a 10 MWe-scale 
pilot Supercritical Transformational Electric Power facility aiming to 
increase the efficiency of power generation, and the Cybersecurity 
crosscutting initiative strengthens cybersecurity across DOE's Federal 
and laboratory sites, and improves cybersecurity for the Nation's 
electric, oil, and gas sectors.
    The fiscal year 2016 budget also proposes one new crosscutting 
initiative, the Energy-Water Nexus. This initiative recognizes that the 
Nation's energy system uses large quantities of water, and the Nation's 
water system uses large quantities of energy, and that DOE's 
coordinated science and technology efforts can contribute to the 
Nation's transition to more resilient energy-water systems.
                            nuclear security
    The fiscal year 2016 budget request provides $12.6 billion for the 
NNSA, an increase of $1.2 billion over fiscal year 2015, to carry out 
our missions for the nuclear deterrent, nuclear nonproliferation 
programs, and propulsion for the nuclear Navy.
Effective Stewardship of the Nuclear Deterrent
    The Request includes $8.8 billion for Weapons Activities, $667 
million above fiscal year 2015, to maintain a safe and effective 
nuclear deterrent while continuing to reduce the size of the active 
stockpile.
    In pursuit of this mission, we have recently achieved a number of 
major accomplishments. We have, first and foremost, had another year of 
science-based certification of the stockpile as safe, secure, and 
effective without nuclear testing. It is important to remember the 
remarkable story that a science research program has enabled the 
paradigm to shift since nuclear testing ceased to allow us to 
consistently certify the stockpile as safe and reliable without 
testing, even as it shrinks.
    In the major life extension programs, we have now passed the 
halfway mark in Life Extension Program (LEP) for the W76-1 warheads for 
the Navy, and our fiscal year 2016 budget request of $244 million will 
keep us on track to complete the program in 2019. We have conducted 
successful first integration testing of the B61-12 LEP for the Air 
Force on or ahead of schedule, and the Request of $643 million supports 
delivery of the First Production Unit in 2020. By the end of fiscal 
year 2024, completion of the B61-12 LEP will shrink the number of 
active and inactive weapons, reduce the mass of nuclear material used 
in these weapons, and allow us to retire the B83, the last U.S. megaton 
class weapon. Our Request of $220 million for the W88 ALT 370 supports 
delivery of the First Production Unit with conventional high explosives 
refresh by fiscal year 2020.
    This budget supports the Nuclear Weapons Council decision to 
accelerate a new cruise missile capability, and the selection of the 
W80 as the warhead for the Air Force's Long Range Stand-Off system 
(LRSO). The fiscal year 2016 budget request includes $195 million to 
accelerate the program by 2 years, to be completed in 2025, in order to 
meet military requirements.
    We have begun operations in the new Kansas City Responsive 
Infrastructure Manufacturing and Sourcing (KCRIMS) facility with half 
the footprint and an improved operating environment compared to the old 
environment. And at the National Ignition Facility, we have 
significantly increased the shot rate and achieved impressive advances 
in experimental results in closer alignment with modeling predictions.
    As I mentioned earlier, we have used strategic partnerships with 
the National Laboratories to rethink some of our challenging projects. 
As a result of the Red Team review of the Uranium Processing Facility 
at the Y-12 National Security Complex in Oak Ridge, led by the Director 
of the Oak Ridge National Laboratory, and a similar review of the 
Chemistry and Metallurgical Research Replacement Facility (CMRR) 
capability at Los Alamos National Laboratory, we are developing a 
disciplined modular approach for both sites that will remove risks 
early in the process and build to a more rigorous budget and schedule. 
This rigorous process will be an important and recurring project 
management theme at the NNSA and across the Department of Energy--in 
particular, at the Office of Environmental Management.
Controlling and Eliminating Nuclear Materials Worldwide
    The fiscal year 2016 budget request includes $1.9 billion for 
Defense Nuclear Nonproliferation, $325 million above fiscal year 2015, 
to continue the critical missions of securing or eliminating nuclear 
and radiological materials worldwide, countering illicit trafficking of 
these materials, preventing the proliferation of nuclear weapon 
technologies and expertise, and ensuring that the U.S. remains ready to 
respond to high consequence nuclear and radiological incidents at home 
or abroad, and applying technical and policy solutions to solve 
nonproliferation and arms control challenges around the world. The 
Request is a $101 million, or 5 percent, increase from the comparable 
fiscal year 2015 enacted level after adjusting for a budget structure 
change moving counterterrorism efforts from the Weapons Activities 
appropriation to the Defense Nuclear Nonproliferation appropriation.
    We have completed the removal or disposal of a total of 190 
kilograms of vulnerable nuclear material, through bilateral agreements, 
and trilateral agreements with Russia and countries with material of 
Russian origin. Despite a difficult relationship at the moment, we are 
continuing to work with Russia to repatriate weapons-usable material to 
the United States or Russia.
    In 2014, we obtained a pledge from Japan at the 2014 Nuclear 
Security Summit in The Hague to remove and dispose of all highly-
enriched uranium and separated plutonium from the Fast Critical 
Assembly in Japan. We also helped prevent the illicit trafficking of 
nuclear and radiological materials, technology and expertise by 
installing 37 fixed and 22 mobile radiation detection systems 
worldwide.
    The fiscal year 2016 budget request reorganizes the Defense Nuclear 
Nonproliferation program into four business lines: Global Material 
Security; Materials Management and Minimization; Nonproliferation and 
Arms Control; and Nonproliferation Research and Development. We have 
also strengthened Counterterrorism and Emergency Response by 
consolidating these efforts with Nuclear Nonproliferation programs in 
one account. Together, these reorganizations create a clearer set of 
business lines for the nonproliferation programs and represent the full 
continuum of our nonproliferation efforts as we prevent, counter, and 
respond to global threats.
    In fiscal year 2015, the Congress appropriated $345 million to 
continue construction of the mixed-oxide (MOX) project at Savannah 
River. The fiscal year 2016 budget includes $345 million, which is the 
current services projection from the fiscal year 2015 enacted level, 
while we complete congressionally-directed studies on plutonium 
disposition costs and alternatives.
Advancing Navy Nuclear Propulsion
    The fiscal year 2016 budget request includes $1.4 billion for Naval 
Reactors, $142 million above fiscal year 2015, to support the Navy 
fleet and maintain progress on current efforts to refuel the land-based 
research and training reactor. The Request increases funding for Naval 
Reactor's core objective of ensuring the safe and reliable operation of 
the Nation's nuclear fleet (73 submarines and 10 aircraft carriers), 
constituting over 40 percent of the Navy's major combatants.
    The Naval Reactors programs achieved some significant 
accomplishments this year. In 2014, we began integrated testing of the 
lead A1B reactor plant of the next-generation FORD-class aircraft 
carrier and provided technical resolution support for the nuclear fleet 
which steamed over 2 million miles.
    The fiscal year 2016 budget provides $187 million to continue 
development of the advanced Ohio-Class Replacement Reactor, and $133 
million to initiate refueling of the Land-based Prototype reactor. We 
also provide $86 million to continue construction of the Spent Fuel 
Handling Recapitalization Project.
            cleaning up the cold war nuclear weapons legacy
    The fiscal year 2016 budget request includes $5.8 billion for 
Environmental Management, $43 million below the fiscal year 2015 
enacted level, to position DOE to meet the Nation's Manhattan Project 
and Cold War legacy responsibilities. DOE is responsible for the 
cleanup of millions of gallons of liquid radioactive waste, thousands 
of tons of used nuclear fuel and special nuclear material, disposition 
of large volumes of transuranic and mixed/low-level waste, huge 
quantities of contaminated soil and water, and deactivation and 
decommissioning of thousands of excess facilities.
    I will discuss in a moment the difficult challenges we face with 
some of our remaining Environmental Management projects. But I would 
like to start by pointing out that when the program started, there were 
107 sites to be closed, and we have cleaned up all but 16 sites. To be 
sure, the remaining sites are not the simplest to remediate; however, 
we started with over 3,000 square miles to remediate, and we're down to 
only 300 square miles. And so, by some metrics, we have cleaned 90 
percent of our total footprint. However, it will be decades before we 
finish the most difficult remaining sites.
    Though we are down to some of the most difficult sites, progress is 
steady. Last year, we completed demolition of the K-25 facility at Oak 
Ridge, the largest demolition project DOE has ever undertaken. We have 
converted 15 million pounds of liquid waste into solid glass at the 
Defense Waste Processing Facility at Savannah River, enabling closure 
of six high level waste storage tanks.
    We have put forward and are beginning to implement an alternative 
phased approach to completing the Hanford Waste Treatment Plant (WTP). 
We have cleaned up 479 square miles of the 586 square mile area at 
Hanford, including 90 percent of the River Corridor.
    Going forward in fiscal year 2016, recovery of the Waste Isolation 
Pilot Plant in New Mexico is one of our high priorities. The fiscal 
year 2016 budget includes $248 million to implement the WIPP recovery 
plan, leading to initial resumption of waste emplacement in the first 
quarter of calendar year 2016. The fiscal year 2016 budget will also 
support continued operations of the Integrated Waste Treatment Unit at 
Idaho and work towards closing the tanks.
    With $1.4 billion for the Office of River Protection, we will move 
forward on our phased approach to begin vitrifying low activity waste 
early next decade. The budget moves forward with construction of the 
Low Activity Waste (LAW) facility at the Hanford Waste Treatment Plant, 
including design of a new pretreatment system required for our phased 
approach. We will also continue technical issue resolution at the site, 
and we will bring the Plutonium Finishing Plant (PFP) at Hanford, once 
the highest risk nuclear facility at Hanford, down to slab-on-grade by 
the end of fiscal year 2016.
    Finally, we will continue construction and prepare for 
commissioning of the Salt Waste Processing Facility at Savannah River, 
which is on schedule to complete construction by December 2016.
   management and performance: improving efficiency and effectiveness
    Building on the Department's fiscal year 2015 emphasis on 
management and performance, the fiscal year 2016 budget moves forward 
on initiatives that continue to identify and institutionalize 
improvements across the DOE enterprise.
    In the Department's efforts to improve management and performance, 
we have adopted project management reforms, including strengthening the 
Energy Systems Acquisition Advisory Board (ESAAB) from an ad hoc 
process into an institutionalized regular process for situational 
awareness on project progress and issues, as they arise. ESAAB will be 
supported directly by a Project Management Risk Committee, which brings 
together DOE experts for a continuous look at the risk profile of major 
projects and issues. We have also taken steps to improve the project 
peer review process and institutionalize other project management 
reforms.
    We have also continually worked to improve management, increase 
efficiency, and support diversity on a number of fronts. We have 
recruited 30 high-level Ambassadors from industry, academia, and 
nonprofits to increase participation of minorities in energy. We have 
resolved hiring issues at the Bonneville Power Administration, 
providing additional Human Resources training and restoring hiring 
authority. The Department's management and operating contractors have 
reduced pension plan liability by $100 million through lump sum 
buyouts. Our management and operating contractors have also established 
Health Reimbursement Accounts at 13 sites for their medical-eligible 
retirees, reducing long term financial statement liability by $2.8 
billion.
    Going forward, the budget includes $25 million for the Office of 
the Human Capital Officer to implement a new Human Resources service 
delivery model to streamline our HR model and eventually consolidate 17 
current service centers to five key delivery centers. We will also 
implement a new Energy Jobs Council to improve calculation of energy 
jobs data and strengthen technical support for State workforce 
development programs. We will also continue to strengthen Departmental 
cybersecurity programs, part of the Cybersecurity crosscutting 
initiative, through an enterprise-wide cyber council established in 
2013 for securing personal data, our nuclear security data, and the 
privately-owned energy infrastructure.
  advancing the president's vision: implementing doe's strategic plan
    In conclusion, we have much to do to advance the President's vision 
and implement DOE's Strategic Plan.
    We will continue implementing the President's Climate Action Plan, 
to reduce emissions at home and around the globe.
    We remain committed to our all-of-the-above energy strategy, to 
encourage innovation, create jobs, enable economic growth, and 
contribute to domestic manufacturing and net exports.
    We must maintain leadership in basic research in the physical 
sciences--and increasingly in the life sciences, develop the next 
generation of computation technology, and develop and maintain world-
class scientific user facilities.
    We will continue to maintain a safe, secure, and effective nuclear 
weapons stockpile in the absence of testing, and manage the 
infrastructure needed to meet national security requirements.
    We must continue to reduce the global nuclear terrorism threat 
through measures to identify, control, and eliminate nuclear weapons 
worldwide.
    We will address the legal and moral imperative of cleaning up 
legacy waste to protect human health and the environment.
    We will strengthen DOE and its national missions through cross-
cutting initiatives that leverage the science, technology, and 
engineering capabilities across programs and National Laboratory 
partners.
    And we will continually improve DOE effectiveness and efficiency 
through project management reform and constant attention to maintaining 
a safe and secure workplace.
    Thank you, and I would be pleased to answer your questions.

    Senator Alexander. Thank you, Mr. Secretary. While you 
recover there, I will say to Senators Lankford and Cochran, we 
are going to call on Senator Feinstein first and give her an 
opportunity to ask her questions since she has an Intelligence 
Committee-related commitment and will leave early. Senator 
Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. I 
very much appreciate this privilege. I wanted to--oh, good. 
Just a word to the distinguished chairman of the Energy 
Committee, both Senator Alexander and I mentioned that we had 
completed our joint effort at a nuclear waste policy act, and 
have worked with you and two former Democratic members, or 
ranking members, or chairs--Senator Bingaman and Senator Wyden, 
Senator Landrieu, and now Senator Cantwell. Senator Cantwell 
has gone on the bill, and my understanding is that our chairman 
has introduced it this morning on behalf of the four of us, and 
we are hopeful that you will see fit to have an early hearing 
so that we can possibly develop a nuclear waste policy for our 
country.

            INTERNATIONAL THERMONUCLEAR EXPERIMENTAL REACTOR

    Senator Feinstein. Well, thank you. Thank you very much, 
Madam Senator.
    I wanted to ask a question about--here we go--ITER. It is 
behind schedule and over budget. In 2005, DOE's preliminary 
cost estimate for United States contributions to ITER was 
$1.122 billion, with completion in 2013. The current estimate 
is $4.1 billion with completion in 2034 and '35. As we all 
know, an independent cost review found that the costs could be 
as high as $6.5 billion, and the date could slip further.
    We discussed this at our last--during our last bill, and I 
think both the chairman and I, we are seeing little benefit 
from our participation in ITER. I do not believe that fusion 
will be developed during my lifetime, and perhaps not the 
lifetime of the younger members of this body. And it is 
building a facility in another country that we may never see 
benefits from. So I have some question about continuing this, 
and particularly continuing it at the amount that it is 
budgeted to be.
    Dr. Orr or Secretary Moniz, I would love to have your 
reaction and comment to those statements.
    Secretary Moniz. I will have to defer to Secretary Orr, I 
am afraid.
    Mr. Orr. So, yes, it is my job to try to answer a 
complicated question. The numbers you saw, of course, are 
correct as we know them. The project has encountered some 
serious delays, and there have been some management issues 
raised as well. The current state of play is that there is a 
new director-general who has been named, Bernard Bigot. He was 
confirmed in early March. He has put together a plan that 
would, if accepted fully by all the members, correct the 
management issues that have been raised in the external 
reviews. We think that the plan includes the right elements, 
but obviously there is work to be done to implement that. The 
next steps include building a realistic timeline for completion 
of the project and a realistic budget. And we will, of course, 
be watching very carefully as all of that develops.
    As you know, we are committed to 9 percent of the project 
costs, and the spending proposed for next year is consistent 
with what we think the rate that the project can absorb that 
funding. And I would also note that about 80 percent of that 
funding that we commit actually goes to make the parts, the 
equipment that we are committed to supply to the project, and 
so, therefore, it is actually spent in this country.
    Senator Feinstein. Well, it sounds to me like we have spent 
a billion--$1.22 billion just now in getting ready to get a 
project put together.
    Mr. Orr. Yes, it is fair to say, I think, that the design 
of the project in the early stages was not far along as it 
needed to be to provide realistic cost estimates, and that is 
being corrected now. That work has actually--the design work 
has gone on, but now, of course, they have to implement it.

                     DEPARTMENT STAFF PARTICIPATION

    Senator Feinstein. Yes, I guess this is a problem that I 
certainly have is that you spend a billion, $1.22, and you do 
not really have a project yet. My conclusion is, Mr. Chairman, 
we ought to take another look at it, but I will move along.
    The GAO has been working with DOE staff to review current 
practices and share advice and best practices based on their 
experience. GAO reports that in several instances, DOE staff 
have been unresponsive or unhelpful. The GAO noted that 
regarding reports on cost estimating and analysis of project 
alternatives--here is a quote--``DOE's unspecified open-ended 
date for responding to many of these recommendations may have 
indicated a lack of urgency or concern about the need to 
implement these recommendations.''
    Mr. Secretary, can you instill a sense of urgency in your 
staff to change the management culture and move it to 
participating in this in an active way?
    Secretary Moniz. I will certainly look into this. We have 
made a point, in fact, of trying to speed up our responses. I 
hope those of you here in Congress have noticed that the 
responses have been--the time lag for response has been 
decreased dramatically. We have done that with the DNFSB. I 
will now look into the GAO as well.

                      AMERICAN CENTRIFUGE PROJECT

    Senator Feinstein. Okay. And the last question is about the 
American Centrifuge Project, and I do not like to ask this, but 
I am going to. It was recently announced that Dan Poneman will 
become the new CEO of Centrus, the company formerly known as 
USEC. He served as Deputy Secretary of Energy from 2009 to 
2014, serving under both Secretary Chu and yourself. He was 
heavily involved in decisions to keep USEC afloat, particularly 
when that is just what was being done. It was not meeting its 
goals or timetables as I understand it.
    I understand that there are restrictions on Mr. Poneman 
relative to his contact with DOE for the balance of this 
Administration, but this seems to ignore his potential 
influence with career bureaucrats. And I am really less 
concerned about the optics for Mr. Poneman than I am the 
Department's. And given Mr. Poneman's direct role at DOE in 
advancing USEC, how can anyone fully trust a DOE or contractor 
decision which benefits Centrus?
    Secretary Moniz. Well, I can assure you, first of all, that 
we did make sure that Mr. Poneman had a refresher course on the 
restrictions. We have also made sure to distribute those 
guidelines to those in the Department. We will certainly try to 
adhere absolutely to that wall as called for in those 
restrictions. We will be having to make--as you infer, we will 
be having to make some difficult decisions going forward. You 
mentioned the ACP, for example. That is an area combining our 
enrichment and tritium studies. We will be coming back to the 
Congress soon, and that will cause implications for what is the 
future of that project. But I can assure you that we will be 
having no content----
    Senator Feinstein. Is USEC able to perform adequately at 
this point?
    Secretary Moniz. Well, I cannot get into the company's 
because I do not know the company's overall posture. But I 
would say on the ACP, as you know, we took that away from them 
and actually through Oak Ridge we are managing this project. 
But in the meantime, the former USEC employees who ran those 
machines are the ones that we need to hire to keep the machines 
running until we make a decision.
    Senator Feinstein. Thank you. Thank you, Mr. Chairman.

                       SPENT NUCLEAR FUEL STORAGE

    Senator Alexander. Thank you, Senator Feinstein. I will now 
continue a round of questioning, and I will take five minutes, 
and then go to Senator Murray, and then we will continue.
    Mr. Secretary, I want to focus during this time on used 
nuclear fuel. We have got Senator Murkowski here, who is the 
chairman of the Energy Committee. Senator Feinstein is still 
here. Senator Murray I know is interested in used nuclear fuel 
because of the Hanford situation. Federal law says Yucca is--I 
am going to ask you a large question and then just ask you to--
and then I am going to listen.
    Yucca is the current repository. I fully support the 
current licensing process, but Yucca's legal capacity is 70,000 
metric tons of used fuel. We have already more than that, so we 
have more than enough used fuel sitting safely at sites around 
the country, more than enough to fill up Yucca Mountain. So the 
conclusion we have come to is that whether you are for or 
against Yucca Mountain--I am for it--we need new repositories.
    We also have a small amount of used nuclear fuel from the 
Navy reactors and submarines, and we have canisters of high-
level waste from the Manhattan Project. And you made an 
announcement yesterday about defense and commercial fuel, which 
is relevant to this. So it is clear we need new and temporary 
and permanent storage sites.
    So in addition to Yucca Mountain, we have the idea of the 
pilot program, which comes from the Commission on which you 
serve. Senator Feinstein and I will include that in the Energy 
and Water bill. There is the legislation that we introduced 
yesterday together for a long-term solution, also based in 
large part upon the President Commission's recommendations. 
That is two.
    Another option that may be available is a private 
consolidated storage site like the one recently proposed by a 
group from West Texas, who have indicated their interest in 
filing with the Nuclear Regulatory Commission for an 
application. What they have said is that they might build a 
private site in units of 10,000, maybe 5,000 tons, but up to 
40,000. So the site would be able to hold about half as much as 
Yucca Mountain could if it were open. There is $36 billion of 
money we have collected from electric bills of Americans to pay 
for all of this. The Department of Education is supposed to be 
taking titles.
    So I am trying to get in my mind of these various proposals 
which one is likely to come on first. I know Senator Feinstein, 
for example, would like to get used fuel out of California from 
closed plants to somewhere else. There are seven other sites 
like that around the country.
    So here are my questions. How realistic is the possibility 
of an additional private repository? Do you think the Nuclear 
Regulatory Commission needs any authority to license private 
sites like the one proposed in Texas? Would you need any new 
authority for the Department of Energy to be able to store used 
fuel at a private facility assuming you are taking title and 
storing it there? And will you work with the subcommittee to 
give us technical advice on whatever we might do in the 
appropriations bill that would keep this option on track if it 
is a real option?
    Secretary Moniz. Thank you, Mr. Chairman. First of all, I 
completely agree with the inference that you made that we need 
a comprehensive approach to both spent fuel and to defense 
fuel, and we need to look at storage facilities, repositories, 
and in the context of yesterday's announcement on defense 
waste, potentially even other geological disposal pathways.
    In terms of the timing, I think it is pretty clear, and the 
Administration policy document of January 2013 reinforces the 
Blue Ribbon Commission report. And I think your legislation 
that moves towards a pilot scale storage facility is probably 
the thing that we could bring on the fastest, 6 to 8 years 
perhaps. Now, we had always been envisioning that in the 
context of a Federal facility that the Blue Ribbon Commission 
did and Administration policy did. I think this new dynamic by 
the announcement out of Texas that you referred to is extremely 
interesting, and we want--first of all, we want to learn about 
that.
    With regard to authorities, I think I am not in the best 
position to talk about NRC, although NRC has worked in some 
similar areas before. But with regard to our own authorities, I 
would say that I do not quite know yet what those authorities 
would be, but I can certainly imagine that, especially for a 
private sector facility, that a certain clarification that 
might come out of the legislative process could be quite 
desirable. And we are certainly happy to work as often as you 
would like in terms of discussing the technical aspects of 
this.
    Senator Alexander. Well, thank you for that. My time is up, 
but we would, I think speaking for Senator Feinstein and 
myself--and I will let Senator Murkowski speak for herself--we 
would be interested in working on that in the next 3 or 4 weeks 
to see, (A) what might appropriately be included in the 
appropriations bill, if anything; and (B) what might need to 
come before Senator Murkowski's committee with the whole 
objective, if it is--it sounds to me like you believe the 
private facility could be a realistic option. Then given our 
desire to find a place to put used nuclear fuel, we need to 
know what else do we need to do to put you in a position to 
move that option along.
    Secretary Moniz. Yes.
    Senator Alexander. Senator Murray.

                            HANFORD RICHLAND

    Senator Murray. Well, thank you very much, Mr. Chairman. 
Secretary Moniz, in your testimony you said that it will be 
decades before DOE finishes cleanup at most of our difficult 
nuclear waste sites. The prospect of another 20, or 30, or 40 
years passing before the Federal Government completes this 
critical work at the Hanford site in Central Washington and 
other sites throughout the Nation is pretty unacceptable.
    And it strikes me that year after year Congress receives 
budget requests that fail to meet the necessary investments to 
fulfill the Federal Government's legal and moral obligations 
here. And I am really concerned that the Administration has 
once again cut Hanford Richland Operations by nearly $100 
million just like last year. Tell us how the Administration is 
going to meet its legal commitments under the Tri-Party 
Agreement at this significantly reduced funding level.
    Secretary Moniz. Thank you, Senator. First, of course, I 
would like to talk about the entire Hanford site where we have 
a net $100 million increase in the budget, but admittedly 
Richland is down $100 million, and essentially the WTP is up 
for us to move that forward.
    On the Richland side, I would note that we have made 
considerable progress opening up a good portion of the river 
corridor and with the budget as proposed. And the EM budget 
proposal is $200 million above last year's proposal to the 
Congress, but about equal in appropriation. But going back to 
Richland, we will still--I believe we are going to finish the 
plutonium finishing plant down at this lab. But we will 
continue to clean up the groundwater in the central plateau. We 
will continue to make progress along the corridor. So I think 
it is a strong program. Obviously the best, you know, 
optimizing within our overall program.
    Senator Murray. Well, I appreciate that, but there are 
several high-risk projects close to the city of Richland, close 
to the Columbia River, and Energy Northwest that remain. I am 
really concerned the fiscal year 2016 budget request would 
hamper this cleanup. And in the case of the 324 building and 
the 61810 burial grounds, they would be stopped, or mothballed, 
or kicked down the road. Those are projects that are well 
underway, and we have spent $209 million on them combined. And 
it seems to me that DOE is now trying to pull the plug on them, 
which creates a safety risk, a cleanup delay, cost increases, 
and missing those Tri-Party Agreement milestones.
    The budget request that you gave cites technical challenges 
when rationalizing the cuts to those projects, but no one has 
been able to pinpoint for me what these technical challenges 
are. So what is holding you back from continuing to make 
progress on those projects?
    Secretary Moniz. What I would suggest is maybe the best 
thing is if we come in and talk with you or your staff as you 
prefer and try to work through the whole program.
    Senator Murray. Well, I mean, our subcommittee fought to 
provide $45 million in additional funding for those projects 
last year. And why has DOE not used that money to forward these 
really critical projects.
    Secretary Moniz. Again, let me look into in more detail, 
Senator, and get back to you, and see what we can do to advance 
those.
    Senator Murray. Well, I would like that part of the public 
record as well, so I think it is really important for this 
committee to understand it. And I would hope that we can answer 
in writing as well so that we can have that as part of the 
record.
    Secretary Moniz. We would be happy to. Thank you.

                             YUCCA MOUNTAIN

    Senator Murray. Okay. And let me just mention one final 
issue. The Nuclear Regulatory Commission completed its Safety 
Evaluation Report earlier this year and found that it would be 
safe to operate Yucca Mountain as its nuclear waste repository, 
confirming what more than 30 years of independent studies have 
found. While the fiscal year 2016 requests no funding to 
restart the adjudication process with the Atomic Safety and 
Licensing Board Panel, should Congress provide such funding, I 
really urge you, Mr. Secretary, to follow the congressional 
intent as directed in the Nuclear Waste Policy Act and defend 
DOE's Yucca Mountain license application as an active, engaged 
participate in those proceedings.
    Secretary Moniz. Do you want a response or not?
    Senator Murray. I am hoping you just nodded.
    Secretary Moniz. Sorry.
    Senator Murray. I hope you just nodded. Thank you, Mr. 
Chairman.
    Secretary Moniz. May I just note, Senator, that we do have 
about $17 million of unobligated carryover funds and additional 
obligated carryover funds. So right now, we have no request 
from the NRC, and we think that in a contingency we have the 
funds to cover any work that would be needed.
    Senator Murray. Okay. Thank you very much, Mr. Chairman.
    Senator Alexander. Thank you, Senator Murray. Senator 
Lankford.

                     LIQUEFIED NATURAL GAS EXPORTS

    Senator Lankford. Thank you, Mr. Chairman. Good afternoon, 
gentlemen. Questions about the LNG (liquefied natural gas) 
exports. I know that DOE has a new process on that working with 
FERC (Federal Energy Regulatory Commission), now putting FERC 
first in line and all that. I want to know how that is going at 
this point, and if any additional legislation is needed to help 
expedite the process and to make sure that is a consistent 
process?
    Secretary Moniz. Thank you, Senator. Let me first say that 
I would not phrase as it having put FERC first in line in the 
sense that FERC was always in the line in terms of needing to 
do the EIS. What we did is to say that when projects are ready, 
which is being interpreted as having gone through the EIS 
process, that we will then have enough information for our 
public interest determination, and then we will act.
    Senator Lankford. Right. So how is that going?
    Secretary Moniz. On our side it is going quite well. In the 
last turnaround from the EIS at FERC, we responded literally 
within a day actually. So I think once that information is 
available on environmental impact, I think we are being pretty 
expeditious.
    Senator Lankford. Is there a need for additional 
legislation to put timelines on some of the permitting at this 
point, or where do you stand on that?
    Secretary Moniz. Well, as we have said consistently, I 
think we are executing very expeditiously. I understand that 
Congress has some desire to provide some certainty over some 
years, and with reasonable timing we could work with that. But 
I think we are already responding quite well.

                          AGENCY DUPLICATIONS

    Senator Lankford. Just the geopolitical issues that we face 
right now with the export of LNG, you are extremely aware of as 
well, and some sort of certainty to our allies and other 
individuals that are interested in picking up that fuel is 
extremely important right now based on a lot of our 
negotiations.
    Let me ask a couple of things on some agency duplications 
and just how you manage these and how they work together. I 
want to note the lanes of this. DOE has an Office of 
International Affairs. The State Department has a Bureau of 
Energy Resources. The DOE has the Indian Energy Policy and 
Program Division. The Bureau of Indian Affairs has a Division 
of Energy and Mineral Development. How is that going as far as 
making sure that we have clear lanes of responsibility so we do 
not have overlap and duplication? Obviously we have--both those 
things we are interested in as a committee, but we do not want 
to fund them twice basically. There are other examples I can 
bring to bear as well. How do you manage that overlap of 
programmatic definitions and cooperation where you need it?
    Secretary Moniz. Yes. First of all, obviously number one is 
we do have strong coordination. For example, the head of our 
International Office and the head of the State DNR typically 
meet once a----
    Senator Lankford. Are those unique lanes of responsibility 
or do you feel like they are overlap?
    Secretary Moniz [continuing]. And then clearly having 
different lanes of responsibility. Much of our responsibility 
ends up being driven by our underlying technical energy 
technology expertise. So, for example, if one takes China, 
there we have the clean energy research center we put in some 
funds, China matches, industry matches all of that. Our funds 
are spent on American scientists and engineers. It is a very 
technology driven program. That would be a DOE activity as 
opposed to some of the more, let us call it, geopolitical 
responsibilities at State.

                           CELLULOSIC ETHANOL

    Senator Lankford. Okay. Let me ask you about a couple of 
other grants that are sitting out there. You had mentioned 
cellulosic and some of the advances in cellulosic ethanol. Did 
you mention that there are a couple of companies that are 
coming on board that are producing at this point that you are 
doing grants for, or is it some of the research and 
development?
    Secretary Moniz. It is certainly R&D as well, but, no, we 
also provided some grants to do some cost sharing to get 
commercial scale activities going. In fact, in the last year 
one in Iowa and one in Kansas will be producing about 25 
million gallons of cellulosic.
    Senator Lankford. Did we have grant money involved in the 
QER facility in Mississippi that went bankrupt last year? The 
largest cellulosic producer in the country closed in November 
of 2014 after multiple years of trying to make the technology 
work. What I am trying to figure out is if we are doing new 
grants to new cellulosic companies, have we learned the lesson 
of the cellulosic companies that already started, could not 
make it go, and closed?
    Secretary Moniz. Well, in general, I think we are having 
very, very rigorous processes in our portfolio management, 
strong risk management approaches. And I think our portfolios 
are performing well overall.
    Senator Lankford. Sure, I understand that. Do you know if 
we had Federal dollars involved in the QER facility?
    Secretary Moniz. I do not know that. We could respond for 
the record.
    Senator Lankford. It was the largest producer of cellulosic 
ethanol in the country when it closed. Obviously we are 
producing under a million gallons total in the entire country, 
and it was the largest of those.
    Secretary Moniz. Okay. We will look at that. Thank you.
    Senator Lankford. Okay, thank you. I will yield back.
    Senator Alexander. Senator Udall is next. While Senator 
Feinstein is still here, I am going to ask Senator Murkowski as 
chairman of the authorizing committee if she has anything she 
wants to say before Senator Feinstein leaves, or if you have to 
leave early. I want to make sure you have a chance to ask your 
questions.
    Senator Murkowski. Well, I do not want to preempt my 
colleague on the other side, but I do want to make the 
commitment to you, Mr. Chairman, and to your ranking member on 
this subcommittee that as we move forward with this legislation 
that we have worked so cooperatively on, that I really do hope 
that we have full cooperation and participation from the 
Secretary and from his team in identifying how we can truly 
move this forward. So if it is something where we need to 
understand a little bit more about what this private entity may 
offer and what needs to be done to facilitate that, if that is 
the best way to go. Know that I, too, am interested in 
advancing legislation that will begin to make a difference as 
we deal with our nuclear waste.
    So I do not have a specific question to the Secretary 
because quite honestly, Mr. Chairman, mine would have just 
mirrored yours exactly in terms of now that we have this 
legislation out there, what is the best way to proceed from the 
Secretary's perspective. So I got that answer from him.
    Senator Alexander. Well, thank you, and we will come back 
to you then.
    Senator Feinstein. May I add one thing?
    Senator Alexander. Sure, of course.
    Senator Feinstein. Is it necessary for anything for him to 
proceed? Could he unilaterally approve a Texas facility I think 
is a question worth asking.
    Senator Murkowski. Yes.
    Senator Alexander. Well, the application will be before the 
Nuclear Regulatory Commission----
    Secretary Moniz. NRC.
    Senator Feinstein. But who would make the application?
    Senator Alexander. They would make the application, but 
there are some--but, Senator Feinstein, there are some 
questions that probably need to be understood and resolved 
about--I think the NRC is ready to act on an application should 
it receive it. I think there are some questions that need to be 
resolved about whether the Department of Education is prepared 
and whether there are some things that we need to do make sure 
that they might be able to do it in a more rapid way. Is that a 
fair way to say it?
    Secretary Moniz. Yes, I think it is, Mr. Chairman, and I 
would add to that that part of it will depend upon things that 
I just do not know.
    Senator Alexander. Right.
    Secretary Moniz. For example, what would be the business 
model, and that might influence what kind of authorizations are 
required.
    Senator Alexander. Okay. Well, we will go to Senator Udall, 
and then we will come back to you, Senator Murkowski. If you 
have to leave, let us know, and we will work you in.
    Senator Murkowski. If I can go after Senator Udall, that is 
perfect. Thank you.
    Senator Alexander. Okay. Is that all right, Senator 
Cochran? Thank you, Senator. I feel like a ringmaster here. 
Thank you, Tom, for your patience, and we will go to Senator 
Udall, then Senator Murkowski, and then Senator Cochran if that 
is all right with Senator Cochran. Senator Udall.

                      WASTE ISOLATION PILOT PLANT

    Senator Udall. Thank you, Chairman Alexander. You are the 
ringmaster, and you are doing a very good job of it, and that 
is great. Secretary Moniz, wonderful to have you here and Dr. 
Orr, and appreciate very much your staff and how they have been 
working to ensure positive discussions with the State of New 
Mexico on the State's fines for the accident that occurred at 
the Waste Isolation Pilot Project (WIPP), and that Los Alamos 
was involved in. And I am hopeful that those discussions are 
going well.
    But I just want to reiterate my view that the State of New 
Mexico has a regulatory role, and I think you understand this 
very well. This was something I fought hard for as New Mexico's 
attorney general. We actually won a lawsuit against the 
Department of Energy at the time. So I just want to take this 
opportunity to remind you as discussions continue, that this is 
a unique situation. You are dealing with the only State in the 
Union that has ever accepted a nuclear waste facility, and I am 
hopeful that a constructive dialogue over the State of New 
Mexico's fines for the Department can continue along that line.
    Now, can you talk to us a little bit about working 
constructively to make sure this happens rather than heading 
into a litigation track, which could take many, many years I 
think, and are you committed to working with us to try to get 
that situation resolved?
    Secretary Moniz. Thank you, Senator, and I appreciate your 
interest and support in this area to the extent possible. Let 
me say that, yes, we very much would like to be able to resolve 
this with the governor, with the New Mexico Environmental 
Department, the discussions. Obviously I cannot go into the 
details here since they are part of a resolution pathway we 
hope, but we are very committed, and we are very encouraged 
that the discussions are going on at a very professional level. 
And I am hopeful we will be able to resolve this to the benefit 
of all the citizens of New Mexico and the Department.
    Senator Udall. Yes. No, that would be great. And as you 
know, the Accident Investigation Board report is expected to be 
released soon. Do you have any idea when that would be released 
on the accident?
    Secretary Moniz. I believe we are in the weeks time scale, 
I believe. I can go check on that. The technical evaluation was 
already presented to me.
    Senator Udall. Okay, good. And as you know, that 
contamination with the facility has been shut down. And so, I 
think it is very important that we see it be reopened safely, 
and I underline the ``safely.'' And so, I am hoping that we 
take that cautious approach to make sure that workers are not 
at risk. And will you commit to ensuring DOE does not repeat 
these mistakes again and expose workers to unsafe situations as 
well as radioactivity?
    Secretary Moniz. Well, I can assure you that we are doing 
all that we can in that dimension. First of all, at the very 
beginning, frankly I insisted that we not set schedules before 
we understood what the issues were for safety because otherwise 
safety could be compromised. Now we feel comfortable in terms 
of how the actions are going. We have a plan in terms of 
sealing off the two panels, and we have a plan for looking at 
all the other barrels that have some of the elements that have 
been identified as the cause of the thermal reaction. So we 
need to keep going as fast as we can to make sure that all of 
those other barrels are safe. Every indication is they are. We 
have done a lot of work on them already in terms of putting 
into safe conditions.

                                  B-61

    Senator Udall. Yes, and thank you for that work. And just a 
final question here on the B-61. I know you have made that a 
priority in the budget, but do you worry that the threat of 
sequestration might hurt our modernization in terms of the 
stockpile in the nuclear enterprise?
    Secretary Moniz. Absolutely, and, in fact, DOD and DOE, for 
our different but complementary responsibilities for nuclear 
security, have both said that sequestration caps will make it 
very, very difficult. Frankly, if the budget that we have 
requested in concert with the DOD and the Nuclear Weapons 
Council is reduced substantially, I think there is no doubt 
that we will have to work with DOD to push out military 
capabilities that they very much want.
    In fact, in this budget, the B-61, we would try to probably 
hold that, but then the cruise missile, for example, would 
almost certainly have to get pushed out substantially, as we 
have already pushed out other parts of the stockpile 
refurbishment.
    Senator Udall. Thank you very much. Thank you, Chairman 
Alexander. Thank you, Secretary.
    Secretary Moniz. Thank you.
    Senator Alexander. Thank you, Senator Udall. Senator 
Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. And, Secretary, 
welcome before the committee.
    Secretary Moniz. Thank you.
    Senator Murkowski. I feel like I have got a second bite at 
the apple because you were before the Energy Committee not too 
many weeks ago, and I did have an opportunity to ask questions. 
I would ask you, I did submit a series of questions for the 
record. We still have not received responses on that, so if you 
could have someone to check on the status.
    Secretary Moniz. I will check.
    Senator Murkowski. And we had also hoped to have a hearing 
actually tomorrow, Thursday, on the QER and the release of 
that. And we had hoped--we figured that we were going to be 
setting this well enough in advance, so we have rescheduled 
that for the 28th of April. Are we going to be good with our 
timing so that you think we can proceed with that? We will have 
had a chance to look at that QER that is going to be before the 
Congress.
    Secretary Moniz. I think we will be good with that.
    Senator Murkowski. Okay, good.
    Secretary Moniz. You will have time to review it in advance 
as well.
    Senator Murkowski. Well, we are looking for it with great 
anticipation----
    Secretary Moniz. Thank you.

                          ARCTIC ENERGY SUMMIT

    Senator Murkowski [continued]. As you and I have discussed. 
We are hopeful that there will be a useful framework as we work 
on our energy legislation, so we will look forward to that. At 
the Energy Committee hearing, I did ask you about the Arctic 
priorities contained within the Energy Department's budget, and 
I am continuing to advocate on these issues that you know I 
believe have great significance and priority.
    We have an Arctic Energy Summit that is to be scheduled. It 
is scheduled already. It is going to be in Fairbanks from 
September 28th through the 30th. I do not know if you or your 
staff have been notified of this, but as I have invited you to 
Alaska to review our renewable energy resources, I would also 
invite you to attend that summit or perhaps a designee if that 
would be appropriate. I think it will be timely, and, again, an 
issue that you have and I have discussion on.
    Secretary Moniz. I will certainly look into my schedule, 
but certainly I can assure you we will have senior 
representation.

                             NATIONAL LABS

    Senator Murkowski. Great, I appreciate that. Let me move to 
our national labs. In recent weeks we have seen both this 
congressionally directed commission to review the effectiveness 
of our national energy labs as well as the Task Force on 
National Labs highlight the level of bureaucracy that exists 
between the Department and the labs. That is something that I 
think most of us realize we did not need a report or a 
Commission to determine that. We know that it is an issue.
    Where do we go from here with that? What do we do with 
these latest recommendations to ensure that we do have just a 
greater connect or synchronization here?
    Secretary Moniz. Well, I think we are making progress, and 
I think that was acknowledged in the reports, but there is more 
to do. I think the major overarching critique is that the 
system has become too transactional as opposed to kind of 
outcome oriented. And we have--frankly from day one I created 
the Laboratory Policy Council and the Laboratory Operations 
Board to address these issues, the bringing of--I would say 
kind of restoring a more strategic relationship between the 
Department and the labs. And I think we are getting some 
traction, but we have to keep at it and sustain it. That is on 
the strategic plane.
    But then one comes to the operational level, we have two 
task forces, one working and one just about to be charged, 
which address these transactional issues. So one is a task 
force headed by the head of the Office of Science looking at 
what are the streamlining actions we can take on the M&O 
contracting approach, and they will be reporting reasonably 
soon. And our management and procurement people are all 
involved in that, and so I am hoping for some interesting steps 
that we can take quickly.
    But then we are about to form another group, which is more 
the ``revolutionary group,'' which is going to take one 
particular site, which has some simplicities in its management 
structures, governance structure, with regard to some of the 
other laboratories. And at least in that case look to do a 
pilot program for perhaps tweaking the very structure of the 
M&O contract to help get around some of those transactional 
issues.
    Senator Murkowski. Well, it has long been a problem, so I 
hope that this revolutionary approach pans out.
    Secretary Moniz. That was in quotes.

     ADVANCED TECHNOLOGY VEHICLES MANUFACTURING DIRECT LOAN PROGRAM

    Senator Murkowski. I understood it, and I put it in quotes 
as well. I want you to notice. Very briefly on this last 
question. This is the 48th consecutive month that the ATVM 
Direct Loan Program has been unable or unwilling to finalize a 
new direct loan for an auto maker or a component supplier. So 
it really begs the question in terms of why we would continue 
to have this program on the books, why we would continue to 
have taxpayer support there.
    I have been critical of this program I think you know, and 
have questioned the need and the justification for a direct 
loan program for auto makers and these component suppliers. So 
know that this is something that I am looking at. I do not know 
how many applications you actually have that have been 
submitted to DOE, and whether or not you are even considering 
making a yes/no decision coming up. But you look at that 
program in 48 months, and there has not been a loan made. It 
does cause you to question why we are engaged in this.
    Secretary Moniz. I certainly understand the question. Let 
me just say that I think we have restructured not only the 
ATVM, but the loan programs as a whole. And on the ATVM 
Program, I think it was about a year ago when I and Peter 
Davidson went out to make it clear that for one thing, 
component suppliers were certainly eligible as they face 
retooling challenges for the highly efficient vehicles that we 
need by 2025. And secondly, that the program--that ATVM Program 
had some problems in terms of its dealing with the applicants. 
I believe we have cleaned that up, and we are getting a lot of 
interest. We have an interesting proposal stream, and I think 
you will see some outputs pretty soon.
    Senator Murkowski. Well, Mr. Chairman, thank you for 
allowing me a little extra time. I want to note we have a group 
of young Alaskans that are part of the Close Up Program that 
have been watching this. I told them that while nuclear waste 
is not necessarily something that we are worried about in 
Alaska right now, these are national problems, these are 
national issues, and these kids are getting a firsthand look at 
it.
    Senator Alexander. Well, and they are getting a chance to 
see the chairman of the Senate's Energy Committee, which is 
very important to Alaska, who is also a member of this 
committee. So we welcome them. We are glad they are here. Thank 
you, Senator Murkowski.
    Senator Murkowski. Thank you, sir.
    Senator Alexander. And thanks to Senator Cochran, who is 
chairman of our whole committee, for deferring to other 
Senators. And we will call on him now, then we will go to 
Senator Shaheen.

                           SPENT FUEL STORAGE

    Senator Cochran. Thank you, Mr. Chairman. Mr. Secretary, I 
was looking through the notes that I have been given by my 
staff before the hearing, and we had been advised that there 
was serious consideration given to placing in some Mississippi 
reservoirs a repository for nuclear waste. Those who are 
worried about that from a public safety point of view are 
opposed to even, you know, talking about it, much less seeing 
it happen because of fears, the fears of the unknown in large 
part, but there may be reasons why they are justified. Could 
you give us a status report here or submitted for the record, 
whatever your choice is? I would like to know something about 
the status now, and maybe something a little more elaborate to 
put in the record.
    Secretary Moniz. Okay. Thank you, Mr. Chairman. First of 
all, I was aware--I think it was about a year ago when some 
Mississippi community expressed in a storage facility and 
others expressed lack of interest. But more generally, in our 
fiscal year 2016 budget request we have about $30 million 
requested to start a consent-based process to reach out to 
communities, and States, and regions to see about potential 
interest or interest in potentially hosting a storage facility, 
above ground storage if you like, or potentially a repository.
    So we will be--let me be very clear. We do not have the 
authority to actually implement, to build a storage facility 
without congressional action, but we can move on these early 
stages and deal with communities, provide information, and see 
if they would like to then be a part of a process going 
forward.
    Senator Cochran. Have you developed any sort of schedule in 
terms of when you expect to make a decision as to what you 
would recommend?
    Secretary Moniz. No, I am afraid that is probably too 
unclear at the moment, but we would like to move out in this 
calendar year for sure with this outreach to communities. It is 
not only about storage and repositories. It is also about 
transportation issues, et cetera. So we would really like to 
start laying the groundwork for what will be a set of consent-
based facilities for managing nuclear waste.
    Senator Cochran. Is there contained in the budget request 
that has been submitted by the Department any request for 
funding for anything, any activities?
    Secretary Moniz. Well, the $30 million that I just 
mentioned just for this kind of initial planning and reaching 
out to communities. So that is the near term thing, and we 
envision having some town hall meetings, et cetera.
    Senator Cochran. Thank you.
    Secretary Moniz. Yes.
    Senator Alexander. Thank you, Senator Cochran. Senator 
Shaheen.

                            THERMAL BIOMASS

    Senator Shaheen. Thank you, Mr. Chairman, and thank you, 
Secretary Moniz and Dr. Orr for being here this afternoon, and 
for your service to the country. Secretary Moniz, I read with 
great interest the President's recent executive order planning 
for Federal sustainability in the next decade. I was pleased to 
see that it recognizes thermal power as one of the ways in 
which the Federal Government can address its energy needs. And 
as I know you know, because you are from the northeast, we use 
a great deal of home heating oil in the northeast. New 
Hampshire has the second highest percentage of homes using home 
heating oil. And one of the exciting things about thermal 
biomass is that it offers an alternative for homes and 
businesses in New Hampshire, and also contributes to our timber 
economy in the State.
    And I have had a chance to visit the White Mountain 
National Forest supervisor's office in Campton, New Hampshire 
where they have installed a 90 percent efficient gasification 
pellet boiler system. That has been very beneficial to them. 
And so, I wonder if you could talk a little bit about the 
potential that you see in thermal biomass and what the role of 
DOE can be in promoting that or encouraging its use, not just 
across the Federal Government, but in other ways that are 
beneficial to homeowners like in New Hampshire.
    Secretary Moniz. Thank you. Well, thermal biomass, of 
course, it tends to be regional in terms of its attractiveness.
    Senator Shaheen. Right.
    Secretary Moniz. And certainly in New England there is a 
long history of doing it in industry--the paper industry, et 
cetera, forestry. Then there is a second dimension comes in to 
co-firing, for example, in parts of the country with, for 
example, coal plants. One way of addressing CO<INF>2</INF> 
emissions is by co-firing. In fact, some even would say that 
with enough biomass co-firing and capture, one could even have 
negative CO<INF>2</INF> emissions. So that is a very 
interesting development.
    And then as you refer to the developments in terms of 
pellets in pellet stoves is also something that actually has a 
non-trivial potential if it were fully exploited. But these are 
all interesting areas with----
    Senator Shaheen. What do you mean by a non-trivial 
potential?
    Secretary Moniz. Well, I think in the sense of 
participating--I mean, producing essentially heat, oil, 
electricity at a significant level, not 50 percent of 
electricity or heat, but not, .5 percent either. So somewhere 
in between.
    Senator Shaheen. And can you talk about the role of the 
Department of Energy in encouraging, looking at the use of 
thermal biomass throughout the Federal Government and what kind 
of an alternative it might provide, and what other 
opportunities there are for DOE to help educate people about 
those opportunities?
    Secretary Moniz. I think there are some programs that have 
gone on in terms of also helping support pilot semi-commercial 
scale projects, especially with wood biomass. But I have to say 
perhaps we should go back and look at the question, whether we 
need to take a more coherent view of that, and carry out some 
of the educational activities that you said. I do not know, 
Lin, if you want to add anything.
    Mr. Orr. I do not have anything to add.
    Secretary Moniz. Okay, thank you. We will do that.

                    SMART MANUFACTURING TECHNOLOGIES

    Senator Shaheen. That would be great. I would encourage you 
to do that. I know that there is legislation that has 
authorized but has never been appropriated money to encourage 
some districting through biomass. So let me now switch to smart 
manufacturing, again manufacturing, and the re-emergence of a 
strong manufacturing based in this country is very critical to 
our economy. And one of the concepts that seems to be most 
promising to encourage manufacturing is the concept of smart 
manufacturing, the encouragement of new technologies to help 
with that.
    Can you discuss what the potential is for deploying smart 
manufacturing technologies and what DOE's role might be in 
that?
    Secretary Moniz. Certainly. The smart manufacturing is one 
of a number of kind of enablers of a next generation of 
manufacturing. Certainly one of the--in terms of DOE, a 
specific initiative is that of establishing these national 
manufacturing initiatives. And we have done so while we worked 
with DOD to establish a pilot in Ohio for 3-D printing. But, 
again, for example, our Oak Ridge Laboratory, for the chairman, 
he knows very well. Our Oak Ridge laboratory, for example, 
working with a small, private company printed the first car 
using that technology. We then established another one on wide 
band gap semi-conductors, another on composite materials. And 
now we are in the process of running a competition for one on 
smart manufacturing, integration of sensors, controls, real 
time modeling, et cetera. And we think these kinds of 
technologies, if we propagate them, and that is why these 
institutes are really alliances of a number of academic 
institutions and companies that we have to get this technology 
out, not only to the very biggest companies, but to the mid-
size companies so that they can compete.
    Senator Shaheen. Thank you. My time is up. Thank you, Mr. 
Chairman.
    Senator Alexander. Thank you, Senator Shaheen. Senator 
Graham.
    Senator Graham. Thank you, Mr. Chairman. Mr. Secretary, 
thank you for your service. From my two cents worth, I think 
you are doing a very good job.
    Secretary Moniz. Thank you.

                             SEQUESTRATION

    Senator Graham. I hope that does not hurt you with the 
White House. But in 30 seconds--you may have already done 
this--can you tell us what sequestration will do to your 
Department if we do not find a replacement for these cuts?
    Secretary Moniz. Yes, sequestration would be very, very 
harmful. I think we would see a repeat of what we saw a few 
years ago. And earlier we discussed it particularly in terms of 
on the defense side, that our Stockpile Stewards Plan simply 
could not be executed to meet military capabilities on the 
schedule as desired.
    On our civilian side as well, I should say, because it was 
also said earlier that we are way under investing in clean 
energy technology. So it is on both sides, certainly on the 
stockpile side, that we have discussed before. It blows the 
schedule.
    Senator Graham. And the bottom line is that our nuclear 
deterrent would be compromised.
    Secretary Moniz. Yes. We could not meet the dates that DOD 
is looking at to meet their military requirements.

                 MIXED OXIDE FUEL FABRICATION FACILITY

    Senator Graham. I am not so sure that is a message we want 
to send any potential enemy of the country. My favorite topic, 
and I am sure yours, MO<INF>X</INF> (Mixed Oxide Fuel 
Fabrication Facility). So just for the record, the 
MO<INF>X</INF> Program is an agreement between Russia and the 
United States to dispose of 34 metric tons of weapons grade 
plutonium. It started back in the 90s, right?
    Secretary Moniz. Each.
    Senator Graham. Yes.
    Secretary Moniz. Yes.
    Senator Graham. That is equivalent to 17,000 warheads 
someone told me. Is that about right?
    Secretary Moniz. Yes.
    Senator Graham. That is a lot of weapons material. And the 
goal is to take that off the market forever and turn it into 
commercial grade fuel here, the MO<INF>X</INF> Program.
    Secretary Moniz. Correct.
    Senator Graham. Take a sword and turning into a plowshare.
    Secretary Moniz. Correct.
    Senator Graham. In 2010, we signed an amendment to the 
agreement with the Russians where we pledged to use 
MO<INF>X</INF> as the disposition path.
    Secretary Moniz. Correct.
    Senator Graham. Taking weapons grade plutonium, blending it 
down to create commercial grade fuel that would supply our 
reactors. So at the end of the day we are about 60 percent 
complete, is that right?
    Secretary Moniz. On the MO<INF>X</INF> fabrication 
facility. There are other facilities as well.
    Senator Graham. Yes.
    Secretary Moniz. Right.
    Senator Graham. Okay. So we have had a funding problem. I 
want to reduce costs. There are some studies being done as an 
alternative to MO<INF>X</INF>. When can we expect those studies 
to be submitted to the committee or to the Congress?
    Secretary Moniz. Well, the first study is due April 15th, 
and we are hoping to meet that date.

                      THE FUTURE OF NUCLEAR POWER

    Senator Graham. Okay, thank you. And I just want to thank 
you for helping us the best you can to lower costs. But as the 
Chairman knows, this is a very big deal for South Carolina. We 
have agreed to be a partner with the Federal Government, to be 
the site that would accept the 34 metric tons of weapons-grade 
plutonium, and build and utilize the technology that would turn 
it from a sword to a plowshare.
    I do appreciate the President's budget this year. It is 
better than last, and I know we have got some out-year costs 
that we have got to deal with, so I really appreciate your 
effort to work with us. And I do not believe there is a viable 
alternative that is cheaper or practical, so thank you very, 
very much.
    In terms of the future of nuclear power in this country, 
how would you evaluate the future of nuclear power in this 
country, and particularly on the waste side dealing with 
nuclear waste? What do you see happening in the coming years?
    Secretary Moniz. Well, with regard to the future of nuclear 
power plants, first of all, I would just mention I think it is 
very important how the plants in Georgia and South Carolina end 
up coming in--with regard to budget and schedule, there have 
been some problems, but we will see how that ends up. Another 
direction, small modular reactors could be very interesting as 
well on the----
    Senator Graham. Are you open-minded to that concept of 
small modular reactors?
    Secretary Moniz. Absolutely.
    Senator Graham. Yes, it makes perfect sense.
    Secretary Moniz. I am very enthusiastic that we find out 
what the cost is, et cetera. They have very attractive 
features.
    Senator Graham. I agree.
    Secretary Moniz. On the waste side, well, we discussed it a 
little bit earlier, and I would say that we think we have to 
move out on three fronts. It used to be two perhaps, and 
yesterday it became three. The one is we should be moving 
towards interim storage, and especially a pilot project, as 
soon as we can. We discussed earlier that may have the flavor 
now of being a private as opposed to Federal. We are open to 
discussion on that.
    We are continuing to push for the science based on ultimate 
geologies. We will need probably multiple repositories 
eventually for civilian spent fuel, especially if the fleet 
grows.
    Senator Graham. And would you encourage it to grow? Would 
we be smart as a Nation to increase our nuclear power 
production capabilities?
    Secretary Moniz. Well, as you know, I am very committed to 
a low carbon future. And today, of course, nuclear----
    Senator Graham. You cannot get there without nuclear.
    Secretary Moniz. Nuclear is the biggest contributor today. 
And, of course, if we do not have nuclear in the future, it 
certainly makes it a lot harder to get there. And finally as we 
announced yesterday, the President has authorized us to start 
planning for a separate disposal track for defense waste, which 
we think is a very, very good move for a whole variety of 
reasons.
    And I might just add in pursuing that, clearly a small 
repository would be needed, but there may even be alternative 
geological pathways, like the bore holes, so it gives us more 
flexibility. And I think the whole system will move ahead 
sooner in this approach.
    Senator Graham. Well, thank you for your service. Dr. Orr, 
thank you for your contributions to our country. And I look 
forward to working with the Department. I think you are doing a 
good job, and we have got some challenges, but I look forward 
to working with you and the committee.
    Secretary Moniz. Thank you.

                    NUCLEAR REACTOR LICENSE RENEWAL

    Senator Alexander. Thank you, Senator Graham. Dr. Moniz, I 
know you have somewhere to go. I will ask a few more questions 
of you. Following up on Senator Graham's comment, are you 
concerned--the Center for Strategic and International Studies 
reported that perhaps as many as 25 of our 99 reactors might 
close by 2020. And in talking with utility executives, I am a 
little surprised that a number of them are not planning at the 
moment on asking for renewal of their licenses from 60 to 80 
years. How many reactors do you think we will have in the 
United States 10 years from now?
    Secretary Moniz. Well, I think--I do not want to speculate 
on the number. I think that CSIS number is probably rather on 
the high side. But we do know that there are certainly another 
handful or so at risk over these next years, depending on the 
outcome of various regulatory structures, et cetera.
    This question of 60 versus 80 years, I would just note that 
if reactors go to 60 years, let us just say 60 years, then the 
large wave of retirements would be starting around 2030. That 
next decade would see a lot of retirements. And that is why if 
you run that movie back and ask about capital planning 
decisions, et cetera, at utilities, et cetera, having options 
understood in that 2025 or so timeframe is really critical. And 
that applies to the experience with building Gen 3 plus large 
plants. It also applies to the small modular reactors, and that 
is why our program on the SMRs has been really geared to trying 
to get something operating in the first half of the next decade 
so that it is there in time for this critical decision period 
potentially.

                         SMALL NUCLEAR REACTORS

    Senator Alexander. Well, I will give you credit for being a 
consistent supporter of the small reactor research and support 
for certification and licensing activities, even though we have 
been disappointed with one of the grants, which was not your 
fault. The Department has selected new scale power for the 
Second Technical Support Award Program, and your budget 
supports that. Are you at a point yet where some of the money 
this next year would be used to help pick a site? Do you know a 
site yet for the new scale project?
    Secretary Moniz. No, we do not, but I believe they have 
announced the intent to file at NRC at the end of next year.
    Senator Alexander. So what will happen in the next year? 
What is the status of the Small Reactor Program? Where are we?
    Secretary Moniz. Well, the status is for them to complete 
all of the design engineering work to the place where they can 
apply to NRC. Being a light water-based reactor, we hope that 
that could then go, which is where NRC, of course, has immense 
experience, we hope that that could go reasonably quickly and 
still hit something like a deployment date of, you know, 2022, 
2023.
    Senator Alexander. Are small reactors an option you think 
will be important for the United States as it seeks to provide 
more carbon-free base load electricity generation?
    Secretary Moniz. It certainly could be. I think it is going 
to depend upon the cost performance. But if the cost 
performance is good, I see significant potential because it 
certainly makes a much more attractive financing approach.

                                  WIND

    Senator Alexander. There are a variety of obstacles to 
nuclear plants. The cost of regulation is one. The low cost of 
natural gas is another. A third, according to some of the 
utilities, is the big wind production tax credit in markets 
which are not regulated. In some markets, the production tax 
credit now in its 22nd or 23rd year is so rich for the 
developers that they can actually pay the utility to take their 
electricity so the developers still make a profit. And this has 
the effect, according to the utilities, of what they call 
negative pricing, and it is one more pressure--it undermines 
their ability to operate other kinds of base load activities 
like coal or nuclear power.
    So the bottom line of that is one contributing aspect in 
some markets of the difficulty of economically operating a 
nuclear plant, much less building a new one, is the high 
subsidy for wind, allowing it to undercut nuclear. Secretary 
Chu in 2011 in response to my question said that wind was a 
mature technology. It costs us about $6 billion a year every 
time we renew that big production tax credit. I would like to 
be spending the $6 billion on energy research instead of a 
subsidy that 22 years ago jump started technology. Usually we 
measure maturity in terms of age.
    If Secretary Chu, a Nobel Prize winning scientist, said a 
few years ago that wind power is a mature technology, would you 
not agree that today it must be an even more mature technology?
    Secretary Moniz. I do not follow the logic.
    Senator Alexander. Well, if I am older than you are, and we 
go 3 more years, am I not likely to be mature if I am older? If 
wind was mature in 2011----
    Secretary Moniz. The clock runs, I agree.
    Senator Alexander. If wind was mature in 2011, is it not 
even more mature today?
    Secretary Moniz. But I would just note that--okay. I do not 
know exactly what Secretary Chu was--how he was referring to--
--
    Senator Alexander. I asked him the question is it a mature 
technology. He said yes. That was 2011. Do you think it is a 
mature technology?
    Secretary Moniz. Well, I would say the technology continues 
to evolve in very important ways. It certainly is not at its 
asymptotic performance, if you like. The continued increase in 
turbine size and blade size, et cetera, the ability to work at 
lower wind speeds, these are all critical developments that are 
still going on.
    Senator Alexander. Well, in 22 years, should wind not be 
standing on its own, especially if it is undercutting nuclear 
power? I mean, wind is 4 percent of our electricity after 
billions of dollars. Nuclear is 20 percent, but 60 percent of 
our carbon-free electricity. Why would we want to have any sort 
of policy that would undercut our ability to produce carbon-
free electricity that is base load, like wind, like nuclear?
    Secretary Moniz. Again, I would say the Administration 
clearly supports the PTC, and the tax credit also helps 
incentivize not just the deployment of the same technologies, 
but of these evolving technologies that are very important in 
terms of efficiency, costs, and being able to work in a greater 
variety of wind speeds, for example.
    Senator Alexander. If you had $6 billion, would you rather 
spend it each year on subsidizing a 22-year-old mature 
technology or $6 billion of energy research?
    Secretary Moniz. I think I would have to think about that.

                       MERCURY TREATMENT FACILITY

    Senator Alexander. I hope you and the Administration will. 
Let me switch to a more local concern since I have got you 
captured here all by myself. Mercury containment is the highest 
environmental priority in and around Oak Ridge in Tennessee due 
to releases into the East Fort Poplar Creek, which runs through 
the City of Oak Ridge. You have been attentive to that, and I 
want to thank you for that. It is very important as we move 
from concern about radiation, which is not completely gone, but 
to begin to pay attention to the mercury contamination.
    I believe your budget request includes some funding to 
begin testing technologies to stabilize the mercury in the 
soil. We are going to need to build a new mercury treatment 
facility, which will be able to capture a majority of the 
mercury before it can escape into the environment. When does 
the Department project that the mercury treatment facility will 
be started and completed?
    Secretary Moniz. I had the impression it was in the next 
couple of years, but I will have to get back to you on that, 
Mr. Chairman.
    Senator Alexander. Could you get back to me on that?
    Secretary Moniz. Yes.
    Senator Alexander. That is the most important new priority.
    Secretary Moniz. I am sorry, I misspoke. 2022 is apparently 
the target date.
    Senator Alexander. For?
    Secretary Moniz. For completion and operation.
    Senator Alexander. 2022 is the target date for completion 
of the mercury treatment facility. Has it started yet?
    Secretary Moniz. I think it is going to start next year. It 
is in the project engineering phase right now.
    Senator Alexander. Design phase?
    Secretary Moniz. Design phase, yes. Yes.
    Senator Alexander. Thank you for that information. There is 
a big increase in the Department's budget request for cleanup. 
There is a big increase in the Department's request, but there 
is a decrease in the request for cleanup. In Oak Ridge, funding 
is down $65 million. Do you suspect that that is likely to 
produce layoffs of workers who are involved in the cleanup, and 
if it were to do that, would you not agree that it is wasteful 
and inefficient to have to lay people off and then rehire them 
again?
    Secretary Moniz. Well, I do not know all the specifics, but 
I know that certainly part of it is in things like the funding 
requirements for, you know, contract and post-retirement issues 
in terms of what is the contribution there. But certainly we 
would not like to see any significant force reduction, but I 
will have to look in more detail at the analysis of that.

                        EXASCALE SUPER COMPUTING

    Senator Alexander. Would you take a look at that cleanup? 
That is extremely important to us. Moving on to another--an 
area where the Administration and the Congress have seen eye-
to-eye is in Exascale super computing, and I want to thank you 
for the priority you placed on that. Give me a little update on 
this super computer we call Exascale. What is the first step 
toward developing it, and how much do you estimate it will 
cost, and when can we expect it will be billed?
    Secretary Moniz. First of all, let me note that there is an 
intermediate step towards Exascale, which is the so-called 
CORAL computing initiative. In fact, Oak Ridge will be the 
first site for that. That will get up into probably the $150 
petaflop region, and that would be in 2017, 2018 timeframe.
    Senator Alexander. This was the announcement you made just 
recently.
    Secretary Moniz. About a month ago or so. Yes, that is 
right. And Oak Ridge, Livermore, and Argonne are the three in 
that CORAL initiative. The Exascale target date is maybe 8 
years from now or so. A lot of work to do. The estimated 
cumulative costs will be $2 to $3 billion. We actually have a 
report from my Secretary of Energy Advisory Board, which we 
will be happy to supply to you, which is an analysis of this, 
and that is kind of the scale. And I think this year it is $325 
million or so, and times eight or 10, you get into that region. 
So it is a major effort.
    I should emphasize that going to this scale, it is not 
about the flops. It is about just managing huge data, so this 
is really big data to be managed. There are energy management 
issues. We have got to reduce the energy consumption by a 
significant factor to make this practical. Many, many 
challenges, but I think we have got to be out there in front.
    Senator Alexander. Well, I believe you said it is not just 
who has the biggest computer. It is also who has the personnel 
to operate such.
    Secretary Moniz. Right, because how you operate the 
computer is very, very challenging.

                       SPALLATION NEUTRON SOURCE

    Senator Alexander. Moving on the Spallation Neutron Source 
at Oak Ridge, it is a one of a kind tool to discover how 
materials and biology work. It is the world's most powerful 
pulse neutron scattering facility. There are plans for a second 
target station at the Spallation Neutron Source. When does the 
Department plan to begin work on the second target station, and 
how much funding could be used this year to begin work on such 
a facility?
    Secretary Moniz. The Spallation Neutron Source, first of 
all, I just want to reinforce what you said. I mean, it is a 
real gem and a very, very critical facility for our science. 
There have been some issues, as you probably know, with the 
current target station, but I think we are confident that those 
issues will get resolved.
    The second station, which I think would be more oriented 
towards coal neutrons, is in the queue, but it has to be 
prioritized now among other BES projects. So I have no fixed 
date that I know of.

                               CLEAN LINE

    Senator Alexander. One other question on wind. There is an 
outfit called the Clean Line Energy Wind Project trying to sell 
wind from Oklahoma to the Tennessee Valley Authority. TVA has 
projected that by 2020, it will be about 40 nuclear, so that is 
completely clean. About 10 percent hydro. That is completely 
clean. That is 50 percent. Its new plants are natural gas. That 
is pretty clean, much less emissions. TVA has got an emphasis 
on efficiency.
    Why does it make sense to buy from 700 miles away when you 
can operate nuclear plants, clean up coal plants and gas 
plants, and use hydro power? Is that not an example of carrying 
things too far? And I know that at least one State, Arkansas, 
has objected to the project. Does the Department plan to 
override Arkansas's objection, and will you allow eminent 
domain authority to be used for new transmission lines, which 
will have to be stretched, I guess, from Oklahoma to Tennessee 
to bring that wind power to the TVA?
    Secretary Moniz. Well, that is the question of the Section 
1222 authorities in terms of interstate transmission lines. 
That project is now in the EIS phase, so we have to see what 
the environmental impact statement is, and then move forward to 
a decision. As you say, yes, it will cross Arkansas from 
Oklahoma to Tennessee.

                         BASIC ENERGY RESEARCH

    Senator Alexander. My last question is one in an area where 
we agree. The Administration and the Congress over the last few 
years have agreed on the importance of basic science funding. 
The Congress enacted the America COMPETES legislation a few 
years ago with strong bipartisan support, and President Bush's 
support. President Obama has continued that. We have talked 
about ARPA-E, which came out of the America COMPETES 
recommendation. I have said in statement I would like to double 
energy research. I have said a good place to get it would be to 
take it away from the wind tax credit. But do you have any 
comment to make, and the last question I will have for you, 
about the importance of increasing basic science funding for 
energy research in the United States and the advantages of it 
to our country's future?
    Secretary Moniz. Well, I certainly agree with you 
completely that; (A) it is critical, and (B) we are under-
funding the American Energy Innovation Council already several 
years ago. That is the council composed of a bunch of rather 
recognizable CEOs, not directly in the energy business, that 
made that point. They actually suggested a factor of three 
rather than a factor of two in terms of the funding. That has 
been repeated by others, by PCAST. There is actually some 
simple arithmetic that tells you that this is kind of the scale 
that we should be thinking about.
    So I think the outcomes of that would be enormous. I think 
I have every reason to believe that we have a lot of additional 
creative and innovative capability in our country to fruitfully 
use that kind of funding, as you said, the doubling perhaps of 
energy. I think it would be a leader, taking us into a low 
carbon future with technology costs just continuing to drop, 
drop, drop, coming down. It would give us great export 
potential. I think it is just a winner across the board. I 
totally agree with you.
    Senator Alexander. Well, Dr. Moniz, Dr. Orr, thank you both 
for coming. I would say, Dr. Moniz, I want to thank you for 
yourself in the Cabinet. That is not always an easy job, but 
you come to it very well prepared because of your previous 
service in Washington and your experience at MIT. And I think 
both of us--those of us on the Democratic and Republican side 
here--both appreciate your skill and the fact that you work 
hard to stay in touch in with Congress. So we will look forward 
to working with you in most areas to help create an environment 
where you can succeed, and we will look for your help on a 
whole variety of issues that we have discussed today, including 
technical advice on nuclear waste, which, as you can see, now 
has a pretty good head of steam----
    Secretary Moniz. It sure does.
    Senator Alexander [continuing]. On this committee and the 
authorizing committee, so we need to take advantage of that 
opportunity. So thank you for being here.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for 10 days. Members 
may submit additional information or questions for the record 
within that time if they would like. The subcommittee requests 
all responses to questions for the record be responded--be 
provided within 30 days of receipt.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Question Submitted by Senator Lindsey Graham
    Question. I applaud the Department of Energy's (DOE) work on the 
Grid Modernization Initiative, a critically important task for our 
Nation's security and economic strength. As such, Congress has 
previously funded the development of an industry-scale electric grid 
test bed. While I believe there is a continued need for such a facility 
to test additions to our electric grid and keep the grid secure, it 
seems prudent to examine whether such a facility already exists. Do you 
know of existing grid facilities that could serve in this capacity?
    If such a facility does already exist, would the Department 
continue to require the development of a new facility? If so, what is 
the justification for duplicating limited Federal resources instead of 
partnering with existing facilities?
    Separate from building a new facility, how does the Department plan 
to approach partnerships with any such facility for the testing and 
development of electric grid security going forward?
    Answer. The Grid Modernization Initiative (GMI) is working to 
coordinate resources across the national laboratory complex and the 
Nation. A consortium of national laboratories is proposing an 
integrated network of test facilities across the laboratories, with 
connections to university and industry test facilities to perform 
coordinated testing that links testing assets across the Nation. The 
GMI is not proposing construction of new facilities. Rather, this 
effort reduces duplication, takes advantage of existing capabilities, 
and ensures that our resources are directed in coordination toward the 
multiple issues surrounding grid modernization. These issues include 
advanced control systems performance and protection, cybersecurity, 
resilience to natural disasters, new models and design platforms, and 
device integration and testing.
    Congress has funded (directly and indirectly) several facilities 
across the DOE complex targeted at grid modernization activities. These 
include:
  --The Savannah River National Laboratory (SRNL) partnership with 
        Clemson, Duke Energy, and others.
  --The Energy System Integration Facility (ESIF) at the National 
        Renewable Energy Laboratory (NREL) for system testing of 
        renewable and energy efficiency technologies.
  --Pacific Northwest National Laboratory's (PNNL) Energy 
        Infrastructure Operations Center and Electricity Infrastructure 
        Cybersecurity and Resilience Center for grid operations tools 
        development and cyber security research and response support.
  --Idaho National Laboratory's (INL) extensive hardware testing and 
        distribution feeder test loop for supervisory control and data 
        acquisition (SCADA) testing and evaluation for security issues.
  --Oak Ridge National Laboratory's (ORNL) extensive transmission cable 
        testing, power electronics testing labs, and the CURENT Center 
        for grid control research.
    Universities and utilities expected to be linked into the national 
laboratory testing network include Southern California Edison, Pacific 
Gas and Electric, American Electric Power, Bonneville Power 
Administration, Tennessee Valley Authority, Clemson, Florida State, 
North Carolina State, Washington State, Arizona State, and others.
    One goal of the GMI is to leverage these existing capabilities and 
link sites to expand overall capabilities to avoid duplication across 
the Nation.
    To that end, rather than duplicating existing test bed 
capabilities, four national laboratories (PNNL, NREL, INL, and ORNL) 
have been coordinating the testing of advanced distribution circuits. 
DOE and other organizations, including the Electric Power Research 
Institute, the Smart Grid Interoperability Panel, and the National 
Institute of Standards and Technology (NIST), are considering 
techniques that expand the virtual connection of these distributed 
testing environments. In that way for example, renewable energy 
generation assets at NREL could feed realistic signatures and behavior 
to a control system test bed at PNNL, and cyber security threats could 
be introduced to both systems under test from a third test bed resource 
in Texas.
    Newer capabilities at SRNL and NREL can test integrated 
distribution systems up to 10MW in size, creating unique opportunity 
for system simulation.
    Robust information sharing and the resulting improvement in 
situational awareness have always been a key goal in the energy 
sector's Roadmap to Achieve Energy Delivery Systems Cybersecurity.\1\ 
Several milestones are focused on tools and capabilities that will 
expedite the discovery, analysis, reporting, sharing, and mitigation of 
cyber threats. These milestones were identified by industry with 
concurrence from DOE and the Department of Homeland Security (DHS).
---------------------------------------------------------------------------
    \1\ Http://www.energy.gov/sites/prod/files/
Energy%20Delivery%20Systems%20Cybersecurity%20
Roadmap_finalweb.pdf.
---------------------------------------------------------------------------
    Achieving information sharing and communication is the first of six 
goals identified in DOE's Energy Sector Specific Plan as part of the 
National Infrastructure Protection Plan: establish robust situational 
awareness within the energy sector through timely, reliable, and secure 
information exchange among trusted public and private sector security 
partners.
    We envision a robust, resilient energy infrastructure in which 
business and service continuity is maintained through secure and 
reliable information sharing, effective risk management programs, 
coordinated response capabilities, and trusted relationships between 
public and private partners at all levels of industry and government.
    In its role as the Sector Specific Agency for Energy, DOE works 
collaboratively with two energy Sector Coordinating Councils (SCCs), 
one for electricity and one for oil and natural gas, and a Government 
Coordinating Council with members from all levels of government 
concerned with energy security. These coordinating councils represent 
nearly all members of the energy community and are committed to working 
closely with DOE and other government energy sector partners.
    DOE works closely with the DHS's National Infrastructure 
Coordinating Center and National Cybersecurity Communications and 
Integration Center to enhance the efficient and effectiveness of the 
Government's work to secure the energy sector.
    A centerpiece of DOE's efforts in information sharing is the 
Cybersecurity Risk Information Sharing Program (CRISP), which was 
tested in 2013 and 2014 and is now expanding in partnership with the 
North American Electric Reliability Corporation (NERC) and the 
Electricity Sector Information Sharing and Analysis Center (ES-ISAC). 
This activity is rapidly expanding grid operator engagement in 
information sharing both across industry and with appropriate Federal 
entities. The ES-ISAC establishes situational awareness, incident 
management, coordination, and communication capabilities within the 
electricity sector through timely, reliable, and secure information 
exchange. The ES-ISAC, in collaboration with DOE and the Electricity 
SCC, serves as the primary security communications channel for the 
electricity sector and enhances the ability of the sector to prepare 
for and respond to cyber and physical threats, vulnerabilities, and 
incidents.
    Recent natural disasters have underscored the importance of having 
a resilient oil and natural gas infrastructure and effective ways for 
industry and government to communicate to address energy supply 
disruptions. To this end, in 2013 I asked the National Petroleum 
Council to give their advice through a study on Emergency Preparedness 
for Natural Disasters. This study resulted in seven recommendations, 
including leveraging the Energy Information Administration's (EIA) 
subject matter expertise within the DOE Emergency Response Team to 
improve supply chain situational assessments and recommending DOE and 
States establish routine education and training programs for key 
government emergency response positions. This report was delivered in 
December 2014 and the recommendations are currently being implemented.
    I stand ready to work with all Members to develop practical 
solutions to address and respond to energy infrastructure security 
issues.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Secretary Moniz, during the hearing I raised concerns 
with the fiscal year 2016 Budget Request for Richland Operations at 
Hanford, with a specific focus on the 324 Building and 618-10 and 11 
burial ground projects. These cleanup projects are well underway and 
are high risk projects located close to the City of Richland, Columbia 
River, and Energy Northwest facility. As of January 2015, the 
Department of Energy (DOE) has spent $61 million on the 324 Building 
and this project is on track for completion of Phase 2 this summer. DOE 
has spent $148 million on the 618-10 burial ground, which has resulted 
in completing 75 percent of the trench cleanup and completing all 
design preparations for cleanup of the vertical pipe units. And $8 
million has been spent on the 618-11 burial ground.
    I am disappointed that you were unable to explain the 
Administration's proposed $97.2 million cut to the Richland Operations 
budget, which would predominately come out of the River Corridor and 
Other Cleanup Operations account through which these three projects are 
funded. And I must point out that you failed to answer similar 
questions on these cleanup projects posed by my colleagues Senator 
Cantwell, Congressman Newhouse, and Congresswoman Herrera Beutler. 
Slowing or halting work on these projects poses a safety risk, delays 
cleanup, increases costs, and results in missing Tri-Party Agreement 
milestones.
    The fiscal year 2016 Budget Request cites technical challenges when 
rationalizing the cuts to the 324 Building and 618-10 and 11 burial 
grounds, however, no one has been able to pin-point for me what these 
technical challenges are. Secretary Moniz, I again ask you to provide 
me with an explanation as to what these technical challenges are and 
what is holding you back from continuing to make progress on these 
critical cleanup projects.
    Answer. Completing cleanup at the Richland Operations Office is a 
priority for the Department. There has been tremendous progress at 
Richland, and our fiscal year 2016 budget request focuses on continuing 
to make progress. Between now and the end of fiscal year 2016, we plan 
to complete the design and mockup to ensure we know how to safely clean 
up the 324 building, and complete trench work at the 618-10 burial 
ground.
    At 618-10, the technology to remediate vertical pipe units (VPU's) 
has been successfully tested, but has not yet been deployed on actual 
waste. DOE-RL believes this technology will be successful, but we must 
increase our confidence that the technology will be successful when 
used on actual waste.
    Much of the waste in 618-11 is in a similar configuration; however, 
618-11 also includes waste contained in caissons, which are underground 
concrete vaults. The technology to remediate waste in caissons has not 
been designed, tested or deployed. Additionally, 618-11 is adjacent to 
an operating commercial nuclear power plant, and will require 
additional controls to ensure the safety of plant workers.
    Remediation of the highly radioactive soils under the 324 building 
presents a number of technical challenges, including designing and 
testing equipment to remotely excavate the extremely high dose rate 
soils from under the building. The high dose presented by this waste 
site will also affect any electronic equipment used in the process.
    We share a similar goal of focusing on high-risk cleanup projects, 
such as the Plutonium Finishing Plant and addressing the sludge in the 
K Basin, while addressing technical challenges in other cleanup work.
    Question. Secretary Moniz, the fiscal year 2015 Consolidated and 
Further Continuing Appropriations Act provided $45 million in 
additional funding for the River Corridor and Other Cleanup Operations 
account. This is additional funding that I fought to secure for DOE and 
was designated for use by Richland Operations for the 324 Building and 
618-10 and 11 burial grounds. Report language included in the Senate 
Subcommittee mark for the fiscal year 2015 Energy and Water Development 
Appropriations bill stated ``additional funding is provided for work 
related to . . . cleanup of remaining 300 area waste sites,'' which 
includes projects like the 324 Building and 618-10 and 11 burial 
grounds. Furthermore, during consideration of the fiscal year 2015 
Energy and Water Development Appropriations bill on the House floor 
Chairman Simpson and Congressman Hastings clearly indicated that 
additional funding included in the bill was intended for cleanup along 
the Columbia River and for the River Corridor Closure project, which 
again specifically includes the 324 Building and 618-10 and 11 burial 
grounds.
    It is my understanding that to date, DOE has not allocated the $45 
million in funding towards these cleanup projects. Secretary Moniz, why 
hasn't DOE used this funding to push forward on this critical cleanup 
work? Furthermore, I ask that you provide in writing a detailed 
explanation of how DOE intends to spend these funds in fiscal year 
2015.
    Answer. All funds have been allotted to the Richland Operations 
Office (RL), and the funds provided for fiscal year 2015 activities 
have been obligated to contracts consistent with the report language. 
RL has worked with the River Corridor Remediation Contractor to refine 
work planning for the remainder of fiscal year 2015 and fiscal year 
2016. In fiscal year 2015, funding will enable RL to show progress in 
the following areas:
  --Continued remediation of the 618-10 burial ground, including drum 
        excavation in the trenches and installation of the Vertical 
        Pipe Unit (VPU) over-casings.
  --Completion of the design for the remediation of the 300-296 waste 
        site under the 324 Building.
  --Initiation of construction of mockup facility for remediation 
        efforts associated with the 300-296 waste site.
  --Completion of disposition of 300 Area Surplus Facilities, excluding 
        the 324 Building.
  --Completion of backfill of three deep-chromium contaminated waste 
        sites in the 100-D Area.
  --Continued remediation of the balance of 100/300 Area waste sites to 
        include backfill and re-vegetation
  --Continued operation and maintenance of Environmental Restoration 
        Disposal Facility (ERDF).
    Question. Secretary Moniz, I appreciate the commitment DOE has 
shown over the past year to protecting the Hanford workforce and 
addressing the risks associated with chemical vapors in the tank farms. 
We owe the men and women who work at Hanford the highest safety 
standards.
    On February 10, 2015, DOE released an implementation plan for the 
``Hanford Tank Vapor Assessment Report'' (Report). The implementation 
plan is a formal phased approach to addressing potential chemical vapor 
exposures and the 47 recommendations within the Report. It is my 
understanding that $20 million was committed in fiscal year 2015 
funding and that the fiscal year 2016 Budget Request includes $41 
million to support Phase 1 of the implementation plan, which would 
complete 30 of the 47 recommendations in the Report. Phase 2 would 
begin in fiscal year 2017, and specific actions would be determined by 
what is learned in Phase 1.
    Secretary Moniz, I commend the actions DOE has already taken and 
urge you to ensure that DOE does not stop its work upon the completion 
of Phase 1 of the implementation plan. In addition, I ask that you 
continue to make funding the implementation plan a priority as you 
develop the fiscal year 2017 Budget Request and renew my request that 
you add a specific line item into the fiscal year 2017 Budget Request 
for this purpose.
    The completion of the ``Hanford Tank Vapor Assessment Report'' 
resulted in immediate changes by DOE's contractor in November 2014 to 
increase protective equipment requirements for the tank farms. Since 
then, employees must wear supplied-air respirators when work is 
conducted in the single shell tank farms and under circumstances where 
chemical vapors are anticipated or known to occur in the double shell 
tank farms. Since these requirements have been in place, DOE has been 
successful in reducing chemical vapor exposures for employees. However, 
on April 2, 2015, five employees working in a double shell tank farm 
experienced chemical vapor related smells and three of the five 
experienced symptoms. It is my understanding that the employees were 
not in supplied-air respirators because the double shell tank farm had 
an active ventilation system and no waste disturbing activity was 
occurring.
    Secretary Moniz, given this most recent chemical vapor experience 
in a double shell tank farm I encourage DOE to reevaluate the supplied-
air respirator requirements established in November 2014 and determine 
whether mandatory supplied-air should be extended to double shell tank 
farms.
    Each year DOE works with the Small Business Administration (SBA) to 
establish small business prime contracting goals for the fiscal year. 
Section 318 of the fiscal year 2014 Consolidated Appropriations Act 
made changes to allow DOE to count first tier subcontracts awarded by 
Management and Operating contractors to small businesses toward this 
annual small business contracting goal.
    Secretary Moniz, has the Department used this new tool in setting 
its small business prime contracting goals with SBA? If not, has SBA 
prevented Section 318 from being implemented? Furthermore, I ask that 
you provide in writing the small business prime contracting goal DOE 
and SBA set for fiscal year 2014, fiscal year 2015, and fiscal year 
2016.
    Answer. This authority has not yet been used in setting the 
Department's small business prime contracting goal. As this is a 
monumental change to the small business contracting goaling process, 
DOE continues to work with SBA to implement the new law. Section 318 of 
the fiscal year 2014 Consolidated Appropriations Act came into effect 
through Public Law 113-76 on January 17, 2014. Subsequently, the 
Department of Energy (DOE) recommended to the Small Business 
Administration (SBA) that the DOE fiscal year 2014 small business goal 
be adjusted upward to take into consideration the first-tier small 
business subcontracts awarded by DOE's Management and Operating (M&O) 
contractors, as reflected in statute.
    In fiscal year 2014, SBA did not account for DOE's M&O contractors 
in the way the statute intended. SBA has indicated that implementation 
of this statute is complicated by the data systems used across the 
Federal Government to collect information about subcontracts; the level 
and type of data collected about subcontracts is not as detailed as 
what is collected for prime contracts. DOE, SBA, and the Office of 
Federal Procurement Policy (OFPP) in the Office of Management and 
Budget collaborated to develop a plan to implement Section 318 in 
fiscal year 2015. The plan will enable DOE to receive prime contracting 
credit for its first tier small business subcontracts awarded by DOE's 
M&O contractors while addressing SBA's concerns regarding DOE's 
subcontract data quality and transparency. DOE expects to receive the 
fiscal year 2016 small business goaling letter in the first quarter of 
fiscal year 2016. The small business prime contract goal for DOE was 
6.59 percent for fiscal year 2014 and 6 percent for fiscal year 2015.
    Question. While I support Section 318, I remain concerned it will 
not cover first tier subcontracts awarded by prime contractors working 
on nuclear waste cleanup. In my home State of Washington, the prime 
contractors at the Hanford site are committed to working with small 
businesses. All of these prime contractors have small business 
subcontracting goals ranging from 49 to 65 percent and all of them are 
meeting these goals. Unfortunately, these first tier subcontracts are 
not counted by DOE or SBA towards the prime contracting goals. 
Secretary Moniz, I ask that you continue to work with me and SBA to 
ensure prime contractors working on nuclear waste cleanup receive 
proper recognition and consideration for their extensive work with 
small businesses.
    Answer. The Hanford prime contracts are not M&O contracts, which 
are a DOE-specific type of contract used for long-term continuing 
mission accomplishment, as opposed to the cleanup work performed under 
the Hanford contracts that is aimed at completion of the cleanup. The 
Hanford prime contractors thus are not covered by Section 318 of the 
fiscal year 2014 Consolidated Appropriations Act. The Hanford prime 
contractors' small business subcontracts are taken into account in the 
overall evaluation of DOE's support to small business because they will 
continue to be counted toward the DOE's subcontract goal.
    Question. Secretary Moniz, I understand that several major prime 
contracts within the Office of Environmental Management are due for re-
competition or extension in the next few years. This includes the 
following contracts at the Hanford site: River Corridor Closure 
contract held by Washington Closure Hanford, the Plateau Remediation 
Contract held by CH2M Hill Plateau Remediation Company, and the Tank 
Farm Contract held by Washington River Protection Solutions. Knowing 
the complexity of these cleanup projects and accompanying contracts, 
what steps is DOE taking to prepare for such a sharp increase in 
contract re-competitions, to ensure qualified contractors submit 
proposals to DOE for consideration, and to minimize disruption in 
cleanup work and to local communities?
    Answer. On average, the acquisition process for large cleanup 
contracts begins at least 2 years ahead of the date individual 
contracts must be awarded. A key part of that acquisition planning and 
process is early outreach to determine if industry is well positioned 
to meet potential mission needs at particular sites and to encourage 
qualified contractors to participate. Activities include industry days 
and site tours that provide opportunities to see the location where 
work will be performed and an ability to interface with potential 
teaming members, and quarterly outreach sessions open to any industry 
participants. EM will continue to work closely with sites and affected 
communities as these procurements progress.
    Question. Secretary Moniz, as you are aware, the Office of 
Environmental Management has been without a confirmed Assistant 
Secretary for almost 4 years. The Administration's nominee, Dr. Monica 
Regalbuto, was approved by the Senate Committee on Energy and Natural 
Resources on June 18, 2014 and by the Senate Armed Services Committee 
on June 24, 2014 but the full Senate was unable to vote on her 
confirmation before the end of the 113th Congress. With Dr. Regalbuto's 
nomination being resubmitted to the Senate for consideration, Secretary 
Moniz, I urge you to aggressively push her nomination forward with the 
two committees of jurisdiction and Majority Leader McConnell.
    National scientific user facilities like the Environmental 
Molecular Sciences Laboratory and Atmospheric Radiation Measurement 
User Facility located at the Pacific Northwest National Laboratory in 
Washington State play a central role in the U.S. research ecosystem by 
providing scientists access to unique instruments, expertise, and 
facilities. Each year approximately 750 scientists use the 
Environmental Molecular Sciences Laboratory, while the Atmospheric 
Radiation Measurement User Facility supports 900 users. As State and 
Federal budgets endure continued downward pressure in the coming years, 
the importance of user facilities will continue to grow as they are 
shared resources available to the entire scientific community.
    I am concerned that the fiscal year 2016 Budget Request proposes a 
$2 million cut to the Environmental Molecular Sciences Laboratory and 
an additional $2 million cut to the Atmospheric Radiation Measurement 
User Facility. Secretary Moniz, while these cuts seem small they could 
have significant impacts to the availability of equipment and the 
number of users that can take advantage of these important resources. 
How does the fiscal year 2016 Budget Request continue to ensure that 
scientific user facilities have the funding they need to serve the 
scientific community and maintain U.S. global leadership in scientific 
innovation?
    Answer. The President's fiscal year 2016 Budget Request supports a 
balance of substantial investments in the Office of Science's research 
programs, the operations of its existing 27 scientific user facilities, 
and the construction of several new user facilities and major upgrades 
to existing facilities. These user facilities are a major component of 
our national research infrastructure, and were used by more than 32,000 
users spanning more than 2,300 institutions in fiscal year 2014. Nearly 
1,000 users affiliated with Washington State institutions used the 
Office of Science user facilities in fiscal year 2014.
    In formulating its budgets annually, the Office of Science 
considers the long-range--5-to-10 year strategic planning processes, 
aimed at identifying scientific leadership directions that demand 
suites of instrumentation that are generally unavailable elsewhere. The 
planning also evaluates facility construction needs, facility 
efficiencies, and operations strategies in a variety of budget 
scenarios. In fiscal year 2016, Environmental Molecular Sciences 
Laboratory (EMSL) will address a more focused set of science challenges 
that respond to needs of DOE biological and environmental research; 
thus, research activity (and associated instrumentation) outside this 
scope will be sunsetted and priority given to utilization of unique 
observing technologies, such as the High Resolution Mass Accuracy 
Capability (newly available in fiscal year 2016) and new capabilities 
in the Radiological Annex and Quiet wing. In addition to supporting 
EMSL at the level necessary to tackle identified biological and 
environmental needs, we believe that the fiscal year 2016 Request 
provides the resources for the Office of Science to successfully 
deliver our highest priority investments in new and upgraded user 
facilities while continuing to advance today's mission-driven research 
objectives through our existing facilities.
    Question. The Department of Energy, through the Bonneville Power 
Administration (BPA), plays an important role implementing the Columbia 
River Treaty as a member of the U.S. Entity. Together with the U.S. 
Army Corps of Engineers Northwest Division, BPA engaged in a multi-year 
process with domestic stakeholders throughout the Pacific Northwest to 
reach a regional consensus to modernize the Columbia River Treaty. The 
``Regional Recommendation for the Future of the Columbia River Treaty 
after 2024'' was presented to the Administration and U.S. Department of 
State in December 2013. Since then DOE, the Army Corps, and several 
other Federal agencies have been participating in an Interagency Policy 
Committee (IPC) process to determine the parameters for negotiations 
with Canada based on the Regional Recommendation. Secretary Moniz, as a 
participant in the IPC process, can you share the timeline for 
formulating a consensus among the Federal partners on these parameters? 
Furthermore, are there any specific issues preventing the Federal 
partners from reaching consensus, completing the IPC process, and 
beginning negotiations with Canada in 2015?
    Answer. The Department of Energy shares your interest in the 
Columbia River Treaty review. The Regional Recommendation for the 
Future of the Columbia River Treaty after 2024 was negotiated by many 
sovereigns and stakeholders over many years, and reflects a balance of 
interests that the Department supports. My staff is working with the 
U.S. Department of State, which has been designated as the lead agency 
to coordinate and oversee the Federal interagency review process, to 
assure that this significant Pacific Northwest matter is moving forward 
and taking into consideration regional recommendations.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
    Question. Without the economy-wide investments in energy efficiency 
made since 1973, it is estimated that today's economy would require 60 
percent more energy that we currently consume. In fact, savings from 
energy efficiency improvements over the last 40 years have reduced our 
national energy bill by about $700 million. Many of these improvements 
would not have been possible without the research, technical support 
and market integration efforts from the energy efficiency programs at 
DOE.
    Still, there are large, cost-effective opportunities to increase 
energy efficiency much further, which will cut energy bills, reduce 
pollution and encourage economic growth. However, a variety of market 
failures and market barriers contribute to keeping us from fully 
realizing our energy efficiency potential. This includes: (1) Imperfect 
information about available technologies in the marketplace and (2) 
Split incentives like landlord-tenant relationships where a building 
owner makes decisions about efficiency investments, but because she 
doesn't pay the utility bill, there is no incentive to purchase more 
efficient and cost-effective appliances.
    DOE plays a vital role in helping leverage market forces and 
overcoming these barriers. Can you discuss initiatives within EERE that 
help with overcoming these types of market barriers when it comes to 
achieving more national energy efficiency gains?
    Answer. The Department of Energy plays an important role in helping 
to reduce market barriers to the adoption of new technologies that are 
market ready--such as a lack of reliable information and workforce 
training gaps--through activities that include providing best practice 
information, stakeholder outreach, sustaining and enhancing the clean 
energy workforce, and providing reliable, objective data.
    Select examples of activities within EERE that help with overcoming 
market barriers include but are not limited to:
  --Advanced Manufacturing Office. Combined heat and power (CHP) is a 
        proven approach to generate on-site electric power and useful 
        thermal energy efficiently from a single fuel source. Through 
        its Industrial Technical Assistance subprogram, the Advanced 
        Manufacturing Office (AMO) supports Combined Heat and Power 
        Technical Assistance Partnerships (CHP TAPs), which promote and 
        assist in transforming the market for CHP, waste heat to power, 
        and district energy with CHP technologies and concepts 
        throughout the U.S. Advanced Manufacturing's CHP efforts 
        support Executive Order 13624, which sets a national goal of 
        deploying 40 gigawatts of new, cost-effective industrial CHP in 
        the United States by the end of 2020. Through these 
        partnerships, the Department supports deployment of these 
        energy efficient technologies through a variety of services, 
        such as education and outreach that provide information on the 
        benefits and applications of CHP to State and local policy 
        makers, regulators, energy end-users, trade associations, and 
        others; and technical assistance to energy end-users and others 
        to help them consider whether CHP is a viable technical and 
        economic opportunity.
  --Building Technologies Office. The Building Technologies Office 
        (BTO) pursues solutions identification and technology-to-market 
        initiatives through its Commercial Buildings Integration (CBI) 
        and Residential Buildings Integration (RBI) subprograms to help 
        reduce market barriers to widespread adoption of cost-effective 
        advanced building energy efficiency technologies and solutions. 
        Existing market barriers include high first cost, fragmented 
        market segments, lack of uniform data and data formats, and 
        insufficient availability of objective consumer information. 
        These contribute to the building trades' slow acceptance and 
        adoption of new technologies and practices. The CBI and RBI 
        subprograms' approach to reducing these barriers includes 
        partnerships with stakeholders to develop and share validated 
        data and best practices, improvement of building design and 
        audit tools, and the creation of reliable efficiency benchmarks 
        and databases to facilitate energy efficiency financing and to 
        define efficiency's value-add to consumers. The CBI and RBI 
        subprograms' efforts focus on developing, demonstrating, and 
        releasing a suite of cost-effective technologies, 
        specifications, tools, and solutions, as well as analyzing 
        their ability to deliver the intended energy savings.
  --Federal Energy Management Program. Performance contracting includes 
        both Energy Savings Performance Contracts (ESPCs) and Utility 
        Energy Service Contracts (UESC). ESPCs and UESCs allow the 
        Government to engage a third-party private sector energy 
        company to invest in needed energy projects and pay for the 
        investment through the energy, water, and operations and 
        maintenance (O&M) savings achieved over the life of the 
        contract. Federal ESPC and UESC projects can include energy and 
        water-efficiency improvements, renewable energy technologies, 
        renewable alternative fuel (biomass/landfill), combined heat 
        and power, advanced metering, and power management. These 
        projects must improve site or system-wide energy efficiency and 
        be life-cycle cost effective in order to guarantee the savings 
        needed to pay for the project. Using performance contracts also 
        provides agencies with access to private-sector expertise in 
        energy efficiency, renewable energy, water conservation, and 
        emissions reductions and can provide a mechanism for smart 
        project management that ensures building efficiency 
        improvements and new equipment without upfront capital costs.
  --Weatherization and Intergovernmental Programs. States face several 
        barriers in retrofitting their existing buildings to make them 
        more energy efficient, including the lack of requisite data to 
        track energy use in their buildings (imperfect information). 
        DOE's State Energy Program (SEP) has offered several 
        competitively awarded funding opportunities aimed at helping 
        States address market failures and market barriers, such as the 
        deployment of data management programs, promoting information 
        sharing to further the use of innovative financing mechanisms 
        such as energy savings performance contracting, and outreach 
        programs to decision makers. Since 2012, SEP has made 56 
        Competitive awards to 30 States in many of these areas, 
        developing model solutions, policies and programs that can be 
        replicated by other States and local government agencies.
    Question. Can you discuss how EERE uses the Building Technologies 
Program and Advanced Manufacturing Office (AMO) to help deploy 
technologies once R&D in their respective economic sectors becomes 
proven and ready for market?
    Answer. The Department plays an important role in helping reduce 
market barriers to the adoption of new technologies that are market 
ready through activities that include providing best practice 
information, stakeholder outreach, and providing reliable, objective 
data.
Advanced Manufacturing
  --The Advanced Manufacturing Office (AMO) orients activities in each 
        of its three subprograms to align with this investment 
        strategy. In the Advanced Manufacturing R&D Projects 
        subprogram, AMO takes into account down-stream R&D challenges 
        to better facilitate the ultimate transition of various 
        technologies into domestic industrial production facilities. 
        Facilities supported under the Advanced Manufacturing R&D 
        Facilities subprogram, such as Clean Energy Manufacturing 
        Innovation Institutes, are designed to both accelerate the 
        development and the implementation of cutting-edge energy 
        efficiency technologies applicable to energy-intensive and 
        energy-dependent industries and materials and technologies 
        broadly applicable to the manufacturing of clean energy 
        products. In addition, the AMO Industrial Technical Assistance 
        subprogram helps manufacturers utilize energy-saving, market-
        ready technologies, such as combined heat and power, through 
        various activities, including market assessments, outreach and 
        information dissemination, and technical assistance.
Commercial Buildings Market Deployment
  --The Building Technologies Office (BTO) has developed a model for 
        spurring market uptake of new technology through its High 
        Impact Technology (HIT) Initiative. The HIT is designed to 
        promote the voluntary uptake of emerging, cost-effective 
        energy-saving building technologies through partnerships with 
        the commercial buildings industry via the Better Buildings 
        Alliance, Federal leaders, regional non-profits, utilities, and 
        efficiency organizations. HIT technologies are high potential 
        technologies identified by DOE through scoring criteria based 
        on national energy saving potential, cost, technology 
        readiness, stakeholder interest, and help achieve the 
        Commercial Building Integration's (CBI) goals to promote 
        adoption and market uptake of energy efficiency technologies in 
        the commercial building sector. From there, CBI then designs 
        and conducts strategic deployment, dissemination and technical 
        assistance activities using stakeholder input regarding the 
        largest, most persistent barriers to adoption and can include 
        partnering with manufacturers to innovate based on demonstrated 
        industry demand, field testing, development of guides on how to 
        use or select of high-performing technologies, or cost-shared 
        technical assistance.

    One example is the Lighting Energy Efficiency in Parking (LEEP) 
        Campaign, which BTO launched in 2012, building on several years 
        of BTO technology research, development, and demonstration and 
        the development of tools to drive high-efficiency lighting and 
        controls into the market. More than 100 organizations have 
        joined the campaign, and, with technical assistance from BTO, 
        have installed high-efficiency lighting or controls in over 445 
        million square feet of parking space. BTO's efforts to engage 
        market leaders to demonstrate high-efficiency lighting in 
        parking lots and structures has created momentum for further 
        market adoption.
Residential Buildings Market Deployment
  --BTO's Building America Program advances technology deployment 
        through applied demonstration projects that cost-effectively 
        integrate innovative technologies and construction practices 
        into new and existing residential buildings systems, working 
        directly with builders and home improvement contractors. 
        Currently, the Building America Program is focusing on highly 
        efficient wall systems that minimize the transport of heat, low 
        load cooling equipment that effectively dehumidifies the home, 
        and proper ventilation levels for efficient homes. Building 
        America works directly with builders and contractors in the 
        market place to demonstrate the market viability of these 
        technologies. In addition, these innovative technologies and 
        building practices are highlighted in BTO's Building America 
        Solution Center, a web-based information source for these 
        technologies that contractors can access from the field.

    BTO also deploys these innovations into the new homes market 
        through the DOE Zero Energy Ready Home Program, a voluntary 
        partnership program for builders, architects, utilities, energy 
        efficiency programs, lenders, and more. The DOE Zero Energy 
        Ready Home label signifies a whole new level of home 
        performance, with rigorous requirements that ensure outstanding 
        levels of energy savings, comfort, health, and durability. BTO 
        also works with EPA's ENERGY STAR New Homes Program to bring 
        these technologies to the marketplace. Many innovations 
        demonstrated by Building America have been included in codes 
        over the years.

    Within the existing homes market, the Better Buildings Residential 
        Program (BBR) works with State and local energy efficiency 
        program partners to deploy proven whole-house and staged 
        upgrade solutions into our Nation's communities. Through the 
        Home Performance with ENERGY STAR Program and the Better 
        Buildings Residential Network, BTO utilizes market partnerships 
        and network effects to increase the deployment of energy 
        efficient, building science-based home performance improvement 
        opportunities among builders, contractors, and homeowners. Home 
        Performance with ENERGY STAR (HPwES) is a public-private 
        voluntary partnership which works with program partners to 
        promote and implement whole-house upgrade solutions for 
        improved, energy-efficient homes. The Better Buildings 
        Residential Network connects energy efficiency programs, 
        contractors, financial institutions, State and local 
        governments, nonprofits, and utilities to share best practices 
        and learn from one another.
    Question. Another important component of DOE's work is ensuring 
that relevant stakeholders in the business and advocacy communities 
have the opportunity to engage with EERE to identify the right types of 
R&D that DOE should be focusing on.
    What processes are in place to ensure that the Building 
Technologies and the Advanced Manufacturing Offices effectively target 
and fund the type of technology research needed and wanted in the 
private sector?
    Answer. The Advanced Manufacturing Office (AMO) funds technologies 
and processes that enable energy cost reduction and efficiency for the 
Nation's most energy-intensive and energy-dependent industries, and 
funds materials and enabling technologies with cross-cutting impact for 
cost reduction and performance improvement broadly applicable to the 
manufacturing of clean energy products. The Program identifies topical 
thrusts within each of these two categories and uses them as organizing 
priorities for existing and proposed technical work.
    These thrusts are identified through extensive consultation with 
private sector firms, non-profit, university and National Laboratory 
partners through various forums, including technology analyses, 
workshops, and by soliciting input from stakeholders through requests 
for information prior to planning of the funding opportunity 
announcements. Funded topics will be selected based on the 
consideration of potential energy, environmental, and economic impacts, 
as well as overall relevance to the private sector, including a topic's 
additionality relative to existing public and private sector 
investments, degree of technical uncertainty and risk associated with a 
topic which limit potential private sector investment, whether 
investment in a topic can be a catalyzing influence, and the 
opportunity for long term impact of that topic on domestic 
manufacturing.
    Similarly, input from industry stakeholders is a critical component 
of the Building Technology Office's (BTO) multi-year R&D and market 
transformation strategy. BTO primarily seeks industry input through 
three methods: Requests for Information (RFIs), which are delivered to 
over 25,000 building energy efficiency stakeholders; Technology R&D 
Roadmap Workshops; and events such as BTO's Annual Peer Review and 
Merit Review, where independent experts provide robust, documented 
feedback on BTO lab and FOA projects' alignment with our mission and 
goals. Each major technology area that BTO works in--lighting, HVAC, 
windows and building envelope, sensors and controls (in development)--
has a roadmap that guides and prioritizes our research over the coming 
years. These roadmaps are developed with considerable input from 
scientists, engineers, academia, and industry experts. Typically, we 
invite these industry stakeholders to an all-day workshop that informs 
the development of the roadmap, and will then seek their review 
throughout its development. Similarly, the High Impact Technology 
Catalyst, mentioned in response to Question #2, issues an RFI every 
year to seek input from technology providers and technology end-users 
(such as building owner/operators) on which technologies should be 
considered for the Catalyst, and which market transformation methods 
may prove the most effective.
    Question. The success of the U.S. manufacturing base is vital to 
our country's long-term economic well-being. Many of our domestic 
companies, including those in New Hampshire, face real challenges when 
it comes to remaining competitive in a global economy.
    One of the most promising breakthroughs in helping companies deal 
with these pressures is the concept of smart manufacturing. New 
information and communications technologies (ICT) and supercomputing 
simulations allow manufacturing companies to optimize their production 
and supply networks by bringing together islands of information found 
throughout the manufacturing chain in order to achieve significant 
energy savings and increase productivity.
    These types of technological innovations can help U.S. manufactures 
become and remain cost effective, efficient, and sustainable. However, 
there remain significant challenges to deploying these technologies 
more widely.
    In particular, how can DOE make sure that smart manufacturing tools 
are made available to all manufacturing firms, particular small and 
medium-sized companies who may have more limited technical and 
financial resources?
    Answer. While many Smart Manufacturing technology elements exist in 
some form and level of maturity today, the scale of the required 
industry collaboration and development needed for Smart Manufacturing 
technology integration, open and interoperable platforms, and 
widespread cost-effective adoption of these technologies is beyond the 
scope of most individual private sector organizations, including small-
and medium-sized enterprises (SMEs). AMO supports the development of 
innovative next generation manufacturing processes and production 
technologies through the creation of collaborative communities with 
shared research, development and demonstration (RD&D) infrastructure, 
including Clean Energy Manufacturing Innovation Institutes, such as the 
proposed Smart Manufacturing Institute. At the technical core of these 
Institutes is shared RD&D infrastructure that contains equipment and 
resources accessible to external parties for technology development 
that would otherwise be cost prohibitive, particularly for SMEs. It is 
expected that the Smart Manufacturing Institute will engage the 
manufacturing community at all levels of the supply chain, including 
large companies, potential end users, researchers, and SMEs involved in 
critical development work and who will support the transition to 
commercial applications, to ensure the Institute is focused on industry 
relevant problems and increase likelihood of success.
    Question. I was very pleased to see that the DOE released a Notice 
of Intent (NOI) in December 2014 to propose its 3rd Nationwide Network 
for Manufacturing Innovation (NNMI), the Clean Energy Smart 
Manufacturing Innovation Institute. I also understand that the AMO 
hosted an Industry Day workshop in February 2015 held in Atlanta, GA, 
to provide an opportunity for potential proposers to understand the 
concept, vision and technology needs for the potential smart 
manufacturing Institute.
    Undoubtedly, the announcement and recent workshop has created 
excitement among manufacturers, academic institutions, national labs 
and State and local governments, all of whom welcome real-time control 
of energy, productivity and costs for manufacturing facilities and the 
benefits these advancements will bring to the sector. I understand the 
issuance of the Funding Opportunity Announcement (FOA) for the 
Institute was expected in March 2015, but an official FOA from DOE has 
not yet been issued.
    My concern is that the delay of the issuance of the FOA coincides 
with the Department of Defense's announcement of their NNMI, competing 
for an overlapping resource base for non-Federal cost sharing. For 
furthering our joint interests and priorities for making smart 
manufacturing a common practice and asset throughout the U.S. and 
driving transformational gains in energy productivity with overall 
improved manufacturing performance, issuing the FOA quickly is 
important for aligning resources and partners adequately.
    What are DOE's plans for the issuance of the FOA to ensure strong 
participation in the Clean Energy Smart Manufacturing Innovation 
Institute?
    Answer. DOE's Smart Manufacturing Institute funding opportunity 
announcement (FOA) is planned for release in mid-2015. The DOE hosted 
an Industry Day on the Clean Energy Manufacturing Innovation Institute 
on Smart Manufacturing in February 2015, which allowed potential 
proposers to hear presentations from government officials about the 
framework for a potential Institute, specific technical topic areas of 
interest, and anticipated proposal requirements. The Industry Day was 
strongly attended, and the Department anticipates strong interest in 
the Institute FOA.
    Question. I was pleased to hear about your commitment to ensuring 
that the benefits of thermal biomass will receive more focus within the 
Department of Energy. As we discussed during the hearing, I read with 
interest the President's recent Executive Order, ``Planning for Federal 
Sustainability in the Next Decade,'' and was pleased to see that it 
recognizes the importance of thermal power by including it in the 
Federal government's renewable energy procurement requirements. This is 
of significant interest to me since I have long been a proponent of 
thermal biomass.
    What is DOE's role in assisting Federal agencies comply with the 
new sustainability requirements pursuant to the President's recent 
Executive Order ``Planning for Federal Sustainability in the Next 
Decade?''
    Answer. The DOE's Federal Energy Management Program (FEMP) works 
with key individuals within agencies to improve the sustainability, 
energy and water use of the Federal Government, which facilitates the 
Government's ability to Lead by Example--encouraging establishment of 
energy goals, facilitating innovative technologies and creating change 
in the energy sphere. This mission helps serve the intent of the recent 
Executive Order 13693, which is to maintain Federal leadership in 
sustainability and greenhouse gas emission reductions. FEMP will 
continue assisting agencies with proven strategies to achieve 
sustainable reductions in greenhouse gas emissions. FEMP will be 
expanding its support for thermal renewable energy through two major 
types of assistance FEMP provides to agencies: technical assistance and 
alternative financing. For technical assistance, FEMP is already 
working with agencies to identify their largest energy-consuming 
campuses and then using FEMP's national laboratory experts and software 
screening tools to comprehensively analyze their most promising 
renewable energy, clean energy and energy efficiency opportunities. In 
financing these projects, agencies will now try to incorporate thermal 
renewable energy into on-site project acquisitions, energy purchase 
agreements with third-party developers, energy savings performance 
contracts and utility energy service contracts. FEMP will continue to 
advise agencies on the issues involved with all of these financing 
options, and provide agencies access to qualified energy service 
companies.
    Question. Will DOE--through the Federal Energy Management Program 
(FEMP)--work with agencies on best practices for compliance? If so, how 
can FEMP help ensure that thermal power options like biomass have a 
viable opportunity to be used as a compliance option?
    Answer. FEMP has and will continue to provide support for agencies 
in meeting their clean energy goals, including both renewable electric 
and thermal energy, as described in EO 13693. This support includes 
project technical assistance, project procurement assistance, guidance 
documents, training, and reporting. FEMP is responsible for tracking 
progress towards the achievement of Federal clean energy goals, and as 
such, advises agencies on how to report their renewable electric and 
thermal energy data to ensure compliance with Federal laws and 
requirements. FEMP will continue to help agencies identify existing and 
new incentives and programs either the agency or developers can use to 
reduce the cost of renewable energy and will continue to develop best 
practices for compliance.
    Question. You may recall that I sent a bipartisan letter to you and 
EPA Administrator McCarthy regarding EPA's recently proposed regulation 
to phase out certain hydrofluorocarbon substances having a relatively 
high global warming potential under EPA's Significant New Alternatives 
Policy Program, or ``SNAP'' program. Specifically, my concern relates 
to the likely impact of the proposal on energy efficiency. As you know, 
the proposal would require a change in the blowing agent used to make 
several types of building insulations. As a result, the energy 
efficiency gains provided by these products could be negatively 
impacted because the alternatives are both less efficient and more 
costly to manufacture, which would increase the price for consumers.
    My interest is ensuring that the EPA's rule does not have 
unintended consequences that results in achieving lower greenhouse gas 
emission reductions than expected. Can you please tell me whether DOE 
has reviewed the EPA proposal to identify how it may impact energy 
efficiency in the insulation sector? Is there close coordination 
between DOE and EPA on this rule?
    Answer. DOE is aware of the concerns expressed by some parties 
regarding SNAP rules and potential impacts upon energy efficiency. We 
consulted with the EPA to ensure that they were aware of our 
perspective on these issues. EPA has now issued their final rule in 
this matter.
                                 ______
                                 
           Question Submitted by Senator Christopher A. Coons
    Question. Major issues--As you know, Delaware is an EPSCoR/IDeA 
State, and the EPSCoR/IDeA programs have been beneficial for many 
universities around the country. It has been brought to my attention 
that there are some general concerns about how much the Department of 
Energy is seeking for this program and how it is operating its EPSCoR 
program in terms of the grant award process.
    In fiscal year 2013, the 25 States and three territories eligible 
for DOE EPSCoR received about 9 percent of all Office of Science 
research award dollars. There are two individual non-EPSCoR States 
that, on their own, were awarded more funding by the Office of Science 
than all of the EPSCoR States combined. In fact, one of these non-
EPSCoR States' funding is more than double what half the States in the 
Nation receive through the Office of Science. This year, your fiscal 
year 2016 request once again keeps DOE EPSCoR flat while the EPSCoR 
programs at the National Science Foundation and the IDeA program 
National Institutes of Health continue to grow.
    I am also concerned about how DOE EPSCoR handled last year's 
Implementation Grant award process. The University of Delaware and two 
other applicants were told in the fall that their proposals were being 
held over for possible fiscal year 2015 funding consideration. The 
University of Delaware was then informed, a few months later, that they 
were no longer being considered for the award and that DOE EPSCoR would 
only be considering funding of one additional proposal instead of all 
three.
    Can you explain why the DOE is not seeking additional funds for its 
EPSCoR program while other agencies have continued to make larger 
requests for their own programs? Can you also explain what happened 
between the time when the University of Delaware was informed about 
their potential award in the fall and subsequently when they were told 
that they were no longer in consideration a few months later? As you 
know, Congress provided $10 million last year for DOE EPSCoR, about 
$1.5 million more than was requested. Why is only one award now being 
made with those additional funds?
    Answer. Year-to-year changes in the DOE Experimental Program to 
Stimulate Competitive Research (EPSCoR) request are consistent on a 
percentage basis with changes in the core research portfolio in Basic 
Energy Sciences. The decision for declining the subject applications 
was due to the consideration of the available budget and the desire to 
have a future funding opportunity announcement with longer lead times. 
The additional funding provided in fiscal year 2015 is being used to 
minimize mortgages in future fiscal years of existing awards so as to 
increase funding available for potential new awards under a future 
funding opportunity announcement.

                          SUBCOMMITTEE RECESS

    Senator Alexander. Thank you for being here today. The 
subcommittee will stand adjourned.
    [Whereupon, at 4:11 p.m., Wednesday, March 25, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
